<html>
<title> - H.R. 2356, THE WMD PREVENTION AND PREPAREDNESS ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
       H.R. 2356, THE WMD PREVENTION AND PREPAREDNESS ACT OF 2011 

=======================================================================

                             JOINT HEARING

                               before the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       INFRASTRUCTURE PROTECTION,
                       AND SECURITY TECHNOLOGIES

                                and the

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2011

                               __________

                           Serial No. 112-32

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

72-252 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director














SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                Daniel E. Lungren, California, Chairman
Michael T. McCaul, Texas             Yvette D. Clarke, New York
Tim Walberg, Michigan, Vice Chair    Laura Richardson, California
Patrick Meehan, Pennsylvania         Cedric L. Richmond, Louisiana
Billy Long, Missouri                 William R. Keating, Massachusetts
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Coley C. O'Brien, Staff Director
                    Alan Carroll, Subcommittee Clerk
        Chris Schepis, Minority Senior Professional Staff Member

                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Joe Walsh, Illinois                  Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Vacancy
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Curtis Brown, Minority Professional Staff Member





























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     1
The Honorable Yvette D. Clark, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     3
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               WITNESSES
                                Panel I

Hon. William J. Pascrell, Jr., a Representative in Congress From 
  the State of New Jersey:
  Oral Statement.................................................     7
  Prepared Statement.............................................    10

                                Panel II

Senator Jim Talent, Vice Chairman, WMD Center:
  Oral Statement.................................................    14
  Joint Prepared Statement of Senator Jim Talent and Senator Bob 
    Gra- ham.....................................................    16
Dr. Robert P. Kadlec, Former Special Assistant to the President 
  for Biodefense:
  Oral Statement.................................................    19
  Prepared Statement.............................................    22
Mr. Richard H. Berdnik, Sheriff, Passaic County, New Jersey:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27


       H.R. 2356, THE WMD PREVENTION AND PREPAREDNESS ACT OF 2011

                              ----------                              


                        Thursday, June 23, 2011

     U.S. House of Representatives,        
      Committee on Homeland Security,      
            Subcommittee on Cybersecurity, 
   Infrastructure Protection, and Security 
                          Technologies, and
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                                            Washington, DC.
    The subcommittees met, pursuant to call, at 10:11 a.m., in 
Room 311, Cannon House Office Building, Hon. Daniel E. Lungren 
[Chairman of the Cybersecurity, Infrastructure Protection, and 
Security Technologies subcommittee] presiding.
    Present from the Cybersecurity, Infrastructure Protection, 
and Security Technologies subcommittee: Representatives 
Lungren, Meehan, Clarke of New York, and Richardson.
    Present from the Emergency Preparedness, Response, and 
Communications subcommittee: Bilirakis, Marino, Farenthold, 
Richardson, and Clarke of Michigan.
    Mr. Lungren. The joint hearing of the Committee on Homeland 
Security's Subcommittee on Cybersecurity, Infrastructure 
Protection, and Security Technologies and the Subcommittee on 
Emergency Preparedness, Response, and Communications will come 
to order.
    Subcommittees are meeting today for a legislative hearing 
on the bill entitled the ``WMD Prevention and Preparedness Act 
of 2011,'' and I would recognize myself for an opening 
statement.
    It is now 2\1/2\ years since the Commission on the 
Prevention of Weapons of Mass Destruction Proliferation and 
Terrorism issued its report entitled, ``World at Risk.'' 
Congress had asked the commission to recommend ways to prevent 
proliferation of WMDs and their use in acts of terrorism.
    Commissioners provided their guidance, and we are close to 
enacting their recommendations and eliminating the remaining 
gaps in our preparedness posture. The prediction of the 
commission that it is more likely than not that there will be a 
weapon of mass destruction used somewhere on Earth by a 
terrorist group before the end of the year 2013, is a startling 
reminder of the danger that we face as a Nation.
    Weapons of mass destruction create a risk of catastrophic 
consequence, but they are of low probability. In such 
circumstances, perhaps it is not surprising that complacency 
and inactivity are our biggest vulnerabilities. We cannot 
forget that we have already faced biological terrorism on our 
soil.
    Al-Qaeda is a dedicated and, in their minds, religiously 
inspired enemy who would use weapons of mass destruction to 
attack the United States whenever the opportunity presents 
itself. According to recent reports, Iran may be as close to 2 
months away from producing a viable nuclear weapon.
    We cannot allow the emergence of a nuclear Iran, and we 
must continue our non-proliferation efforts to prevent that 
possibility. Our intelligence agencies continue to warn of 
these threats.
    For instance, in 2009, then-Director of National 
Intelligence Dennis Blair said the following: ``The on-going 
efforts of nation-states to develop and/or acquire dangerous 
weapons and delivery systems in the Middle East and elsewhere 
constitute another major threat to the safety of our Nation, 
our deployed troops, and our allies.
    ``The threat from the proliferation of materials and 
technologies that can contribute to both existing and 
prospective biological and chemical weapons programs also is 
real.''
    The WMD Commission is measuring our Government efforts to 
protect the Nation from WMD terrorism. We have seen excellent 
progress in certain areas, such as laying groundwork for 
improved security of biological laboratories, developing a 
National strategy for bioforensic, and strengthening our non-
proliferation regime.
    However, the Government did receive a failing grade on its 
efforts to enhance the Nation's capabilities for rapid response 
to biological attacks. I believe the legislation that is the 
subject of this hearing--that is the one that Congress and our 
Chairman, Peter King, and Congressman Pascrell have developed--
addresses the need for a rapid response, and we look forward to 
hearing the witnesses thoughts on that.
    Importantly, we cannot forget Congress' own shortcomings. 
The WMD Commission gave Congress a failing grade for not 
reforming its Congressional oversight to better address our 
homeland security needs. That is a continuing problem. For any 
of those who have been involved in that, we know that sometimes 
old notions of jurisdiction seem to overwhelm the current and 
continuing need for us to reorganize ourselves so that we can 
better address our homeland security needs.
    It is true, homeland security is a cross-cutting, cross-
committee enterprise, and we should not allow historical and 
outdated committee barriers to stand in the way of passing 
needed legislation.
    Finally, I would like to thank my colleague, Chairman 
Bilirakis, for his work to identify some of the remaining 
capability gaps that we face with respect to developing medical 
countermeasures, delivering them to the populations that need 
them, and ensuring that DHS is doing its part to help us 
prevent and prepare for threats to our health security.
    I welcome our witnesses this morning. We look forward to 
learning your views on what remains to be done and how Congress 
may be helpful in these efforts, and I believe that the Ranking 
Member of my subcommittee is detained. She will be here 
shortly, and at that time, would ask her to make a statement.
    So at this point in time, I would recognize the Chairman of 
the Subcommittee on Emergency Preparedness, Response, and 
Communications, gentleman from Florida, Mr. Bilirakis, for any 
statement that he may have.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it 
very much. I am pleased the subcommittees are meeting today to 
consider the WMD Prevention and Preparedness Act of 2011 
authored by the representative, of course, from New Jersey, Mr. 
Pascrell, and Chairman King.
    This bill seeks to address the findings of the WMD 
Commission's report, ``World at Risk,'' and enhance Federal WMD 
prevention and preparedness efforts. A number of hearings in 
the subcommittee on Emergency Preparedness, Response, and 
Communications have helped to inform this legislation.
    The subcommittee has held hearings on the mission and 
activities of Department of Homeland Security's Office of 
Health Affairs and hearings on the research, development, 
acquisition, distribution, and dispensing of vital medical 
countermeasures for chemical, biological, radiological, and 
nuclear emergencies.
    I am pleased that this bill includes legislation I 
introduced, which authorizes the Metropolitan Medical Response 
Systems Program. MMRS has been very successful in helping 
jurisdictions across the country enhance their abilities to 
prepare for and respond to mass casualty incidents resulting 
from terrorist attacks and natural disasters.
    MMRS has been used to support the integration of public 
health, emergency management, and emergency response, and to 
strengthen medical surge capacity, CBRN decontamination, and 
mass triage capabilities. The capacity gained under the program 
is particularly important due to the threat of biological 
terrorism facing the United States.
    This legislation requires the development of the National 
Medical Countermeasure Dispensing Strategy to provide guidance 
to States and localities on the variety of options for 
dispensing medical countermeasures. As I noted, the 
Subcommittee on Emergency Preparedness, Response, and 
Communications held a hearing on the distribution and 
dispensing of medical countermeasures earlier this year. We 
heard from a coalition of emergency response providers that the 
Federal Government has not sufficiently included them in 
efforts to address dispensing needs.
    We must ensure that emergency response providers are 
provided with necessary vaccines and antibiotics so they are 
protected in the event of a CBRN attack.
    I am pleased that the bill requires the consideration of 
the needs of emergency response providers in the development of 
the dispensing strategy.
    In this difficult economic climate, I am pleased to see 
that this bill includes provisions that seek to eliminate 
redundant and inefficient programs. The bill's requirement of a 
comprehensive cross-cutting biodefense budget analysis will 
increase transparency, ensure coordination among all Federal 
departments and agencies with a biodefense mission, and 
eliminate redundancies.
    The bill also eliminates the underperforming National 
Biosurveillance Integration Center. The goal of NBIC was to 
fuse many inputs of the biosurveillance data to provide early 
detection of an event of National significance, such as anthrax 
outbreak.
    While effective National biosurveillance capability is an 
important component of preparedness and response, NBIC has not 
fulfilled its statutory mandates due in part to the lack of 
cooperation from other Federal agencies, and we have limited 
evidence that this situation will improve.
    This bill rightfully realizes that continuing to fund NBIC 
under the current operating scheme would be money wasted and 
calls on White House leadership to develop a new plan to 
implement a program that works effectively and efficiently.
    This bill is a bipartisan effort that has benefitted from 
input from a variety of experts in the field. I look forward to 
receiving additional feedback at today's hearing on ways we 
might further improve the bill and our Nation's ability to 
prevent and prepare for a WMD attack.
    With that, I thank the witnesses for being here, and I 
yield back the balance of my time.
    Thank you, Mr. Chairman.
    Mr. Lungren. Before I recognize the Ranking Member of your 
subcommittee, I just want to say I mean no disrespect to the 
witnesses when I take my coat off. I just am a Californian, and 
I can get used to heat. I have never been able to get used to 
this humidity.
    So, with that, I would recognize the Ranking Minority 
Member of the Subcommittee of Emergency Preparedness, Response, 
and Communications, the gentlelady from California, Ms. 
Richardson, for any statement she may have.
    Ms. Richardson. Good morning. I thank both Chairman Lungren 
and Mr. Bilirakis for convening this hearing on the bipartisan 
WMD Prevention and Preparedness Act of 2011.
    I would like to thank our witnesses and particularly our 
colleague. It is always a pleasure when we have a fellow 
colleague come before us and share their expertise. Clearly, 
Mr. Pascrell, you are an expert in this area, and we respect 
all of the work that you have done.
    Today's hearing and the release of the WMD Act is timely 
given the host of threats that we continue to face. As the WMD 
Commission found in its December 2008 report, America needs to 
move more aggressively to address our vulnerability to a 
bioterror attack.
    As an original co-sponsor of this particular act, I am 
proud to take up this bipartisan legislation that addresses 
this vital WMD issue from prevention to recovery.
    I also want to applaud Mr. Lungren and Mr. Bilirakis for 
pulling us together in this bipartisan effort and bi-committee 
effort. We don't do this, I don't think, often enough, and I 
really applaud your leadership in pulling this together.
    This bill addresses the unique issues and promotes 
improving our countermeasures development and dispensing 
mechanisms. One of the key provisions in this bill includes 
ensuring that we empower our citizens by providing WMD 
preparedness guidance and early warning systems.
    An area of particular importance to me is ensuring that we 
consider the needs of all of our vulnerable populations, and 
this is something Mr. Bilirakis and I have spoken about and 
look forward to working on future legislation on.
    Vulnerable populations would be including children, the 
elderly, and people with disabilities. This bill addresses 
these areas by recognizing the importance and the role of State 
and local government and our first responders who will be 
sharing with us today.
    We must act now prior to any attack to ensure that our 
personnel, our plans, our equipment, and other resources are in 
place to effectively respond. The WMD Act ensures that first 
responders are supported through training, exercise 
participation, intelligence information, grant funding, and the 
inclusion in the preparedness planning process.
    As a representative of the 37th Congressional District in 
California, I understand the critical importance of 
preparedness for a potential terror attack utilizing chemical, 
nuclear, biological, or radiological weapons.
    It is time for us to act and to close these gaps now that 
exist and provide the resources needed to ensure that we are 
resilient and able to secure our homeland. I am proud to 
support this legislation, and I thank Congressman Pascrell, 
Chairman King, Ranking Member Thompson, Chairman Lungren, 
Chairman Bilirakis for all of your leadership.
    Again, I thank you for being here today, and I look forward 
to your testimony.
    [The statement of Ranking Member Richardson follows:]
         Prepared Statement of Ranking Member Laura Richardson
                             June 23, 2011
    Good morning. I thank both Chairmen Lundgren and Bilirakis for 
convening this hearing on the bipartisan WMD Prevention and 
Preparedness Act of 2011.
    I would like to thank the witnesses for appearing before the 
committee today and express this committee's deep appreciation for your 
service to our country.
    Today's hearing and the release of the WMD Act is timely, given the 
host of threats we continue to face.
    As the WMD Commission found in its December 2008 report, America 
needs to move more aggressively to address our vulnerability to a 
bioterror attack.
    As an original co-sponsor of the WMD Prevention and Preparedness 
Act, I am proud to take up this bipartisan legislation that addresses 
vital WMD issues from prevention to recovery.
    The recent disaster in Japan provides us with a greater 
understanding of the unique public health issues we must address as a 
Nation.
    This bill addresses these unique issues and promotes improving our 
countermeasure development and dispensing mechanisms.
    One of the key provisions in this bill includes ensuring we empower 
citizens by providing WMD preparedness guidance and early warning 
systems.
    Our diverse communities require we consider the needs of all 
individuals and have inclusive policies.
    An area of particular importance to me is ensuring that we consider 
the needs of vulnerable populations, including children, the elderly, 
and people with disabilities.
    This bill addresses these areas by recognizing the important role 
of State and local first responders in the planning process.
    The first responder community is an essential partner in our WMD 
preparedness efforts.
    They are on the frontline in our efforts to deter an attack; and 
they will be there first to help affected citizens.
    Therefore, Congress should provide our first responders with the 
resources they need in order for them to meet the wide-ranging needs 
associated with responding to a WMD terror attack.
    We must act now, prior to an attack to ensure that the personnel, 
plans, equipment, and other resources are in place to effectively 
respond.
    The WMD Act ensures first responders are supported through 
training, exercise participation, intelligence information, grant 
funding, and inclusion in the preparedness planning process.
    I am proud that this committee is working together to move this 
bill forward and address these concerns.
    As the representative of the 37th district of California, I 
understand the critical importance of preparedness for a potential 
terror attack utilizing chemical, nuclear, biological, or radiological 
weapons.
    There are four nuclear reactors located in my State, with two of 
them located within 50 miles from my district.
    If these nuclear facilities ever became compromised, the issues 
that we raise today would have a direct impact on the outcome of such a 
situation.
    It is time for us to act and close the gaps that exist and provide 
the resources needed to ensure we are resilient and able to secure the 
homeland.
    I am proud to support this legislation and thank Congressman 
Pascrell, Chairman King, and Ranking Member Thompson for their 
leadership.
    Again, I thank you all for being here today and I look forward to 
your testimony.

    Mr. Lungren. I thank the gentlelady for her comments. Other 
Members of both subcommittees are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
        Prepared Statement of Ranking Member Bennie G. Thompson
                             June 23, 2011
    Thank you Chairmen Lungren and Bilirakis for holding this hearing.
    I also want to thank our witnesses for appearing to testify on our 
efforts to counter the threat from weapons of mass destruction.
    The Commission on the Prevention of WMD Proliferation and 
Terrorism--``the WMD Commission''--produced a report entitled ``World 
at Risk'' in 2008.
    In that report, they told us that they believed that a terrorist 
attack would occur somewhere in the world by 2013, and that it was more 
likely to be an act of biological terrorism.
    Further, during the 111th Congress, this committee heard testimony 
from Senators Bob Graham and Jim Talent, then the Chair and Vice-Chair 
of the Commission.
    They testified that the Government's progress toward implementing 
their 13 recommendations was slow and went as far as giving it a grade 
of ``F'' in these two areas:
  <bullet> ``failure to enhance the Nation's capabilities for rapid 
        response to prevent biological attacks from inflicting mass 
        casualties''; and
  <bullet> for a lack of progress on reforming Congressional oversight 
        ``to better address intelligence, homeland security, and 
        crosscutting 21st-century National security missions.''
    In a bipartisan response last fall, this committee voted favorably 
to report H.R. 5498--the WMD Prevention and Preparedness Act of 2010 to 
the House.
    H.R. 5498 was a comprehensive bill that addressed the major actions 
recommended by the WMD Commission.
    The bill included a range of provisions related to prevention, 
deterrence, detection, preparedness, response, and recovery.
    As a Nation, we have been fortunate that a WMD attack has not come 
to fruition in the United States.
    But we must move forward with closing the coordination and resource 
gaps identified by the WMD Commission.
    Today, I am glad to report that this committee is once again 
working in a bipartisan fashion in order to enhance the Government's 
capability to counter the pressing WMD threat.
    This bill will reintroduce many of H.R. 5498 major initiatives 
related to homeland security, intelligence, public health, and foreign 
affairs matters.
    Therefore, I look forward to working with Mr. Pascrell, Mr. King, 
and our Members to once again push this legislation through the 
committee.
    As we move closer to the 10th anniversary of 9/11, we are reminded 
of the consequences of fragmented security policies and inadequate 
resources.
    This bill provides a framework for biodefense that is inclusive and 
recognizes the important role of first responders.
    A potential WMD attack requires that we refashion policy and ensure 
that our first responders have the resources needed to be effective.
    Investments in emergency communications, planning, and response 
equipment saves lives.
    The first responder grant program's importance to WMD preparedness 
should not be understated and must be provided at adequate levels.
    I hope our conversation today provides an opportunity to understand 
the role and needs of first responders related to WMD preparedness.
    This bill ensures first responders have the committed and 
collaborative Federal partner needed to address the unique issues of a 
potential WMD attack.
    I look forward to hearing the testimony of our witnesses, and I 
yield back.

    We are pleased to have two panels of witnesses before us 
today on this important topic.
    The first panel is entirely taken up by the gentleman from 
New Jersey. Congressman Bill Pascrell is a distinguished Member 
of the House of Representatives, former Member of the Homeland 
Security Subcommittee on which he served in the 108th through 
the 111th Congress. He is authored legislation that is the 
subject of today's hearing along with Chairman King in both the 
111th and 112th Congresses. Our hope is that we might actually 
move this one this year.
    Per an agreement between the Majority and Minority of both 
subcommittees, Congressman Pascrell will be extended 
Congressional privilege--be able to sit and will not be 
answering questions from the Members.
    We look forward to his testimony on the bill, and he is now 
recognized.

STATEMENT OF HON. WILLIAM J. PASCRELL, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pascrell. Thank you, Mr. Chairman, and it is an honor 
to be here.
    Chairman Lungren, Ranking Member Clarke, who just came into 
the room, thank you. Chairman Bilirakis and Ranking Member 
Richardson for holding this joint subcommittee hearing.
    I know that this committee particularly appreciates the 
fact of trying to coordinate situations since there are four or 
five other major committees that have to deal with this 
legislation, and we are going to try to address that 
bureaucratic nightmare, which is in my throat and in Mr. 
Chairman Lungren's throat. How we do that, I don't know.
    I want to recognize both Chairman King and Chairman 
Thompson. Chairman King and I worked diligently on this, as you 
well know, had bipartisan support. The last session, 
unfortunately, we did not get this bill, because we could not 
get cooperation beyond this committee. That is where it stood.
    I also want to thank the committee for inviting Sheriff 
Berdnik from my county, Passaic County, he sits right behind 
me. He will be testifying in the next panel along with two 
distinguished other individuals who have contributed so much to 
what you all agree is the most serious threat to the United 
States of America.
    I know that the sheriff will be able to provide you very 
valuable insights into the role his Department plays in 
preparing and responding to a terrorist attack.
    The folks on the ground, the boots on the ground are the 
first to respond, not the Federal Government, in a catastrophic 
situation, and that is why he is here to testify.
    I want to discuss the WMD Preparedness and Prevention Act 
of 2011, which Chairman King and I have introduced. We will 
introduce tomorrow the actual bill. I am proud of all the work 
that went into the legislation. I am especially proud that it 
is bipartisan, and I want to say, Mr. Chairman, that the staff 
has been very, very helpful.
    We had another meeting yesterday in which they just were 
terrific. They understand the issue. They are sensitive to the 
bureaucratic situation which we face, and we were trying to get 
some ideas on how we are going to have an end-run and get this 
thing done. Because while we all say, you know, this is 
important and significant, we haven't figured out the strategy 
of getting through and getting it passed.
    But I understand leadership wants this. So I hope, with 
your great influence, Mr. Chairman, it will get done.
    Last year, Chairman King and I came together to craft this 
legislation based upon the WMD Commission's report, ``World at 
Risk.'' Just as we need to read the 9/11 Report, we need to 
read ``World at Risk.'' It is a tremendous document put out by 
former Senator Talent and former Senator Graham of Florida.
    I think this is must-reading for all of us who want to 
protect this country. They gave us a report. We had some real 
sobering findings when we read it. We had to go back and read 
it again to make sure that we were reading what we were 
reading.
    The finding that under our current readiness, this attack 
as you referred to just a few moments ago, Mr. Chairman, is 
likely to occur before 2013 or by 2013. It gave us pause, all 
of us--gave us a sense of urgency. Urgency is a tough thing to 
deal with in Congress, regardless of who is in charge.
    Today, even after the death of Osama bin Laden, we know 
that terror groups like al-Qaeda are still out there probing 
and plotting attacks against Americans. They continue to be 
committed to obtaining nuclear and biological weapons, 
regardless of where they come from.
    Both Mr. King and myself being Members of the New York-New 
Jersey region are too familiar with the devastation and the 
tragedy that surrounds an attack with a weapon of mass 
destruction. Sheriff Berdnik was a 9/11 first responder 
himself.
    We have to do everything in our power to ensure that 
nothing like 9/11 ever happens on our soil. The thought of a 
WMD attack anywhere in our region is too horrific for words. We 
realize that. Using the commission's report as a guide, 
Chairman King and I first introduced this legislation in 2010 
with the support and endorsement of the commissioners.
    While our bill passed this committee, it unfortunately was 
never considered in the entire House. This is unacceptable, Mr. 
Chairman. As you said--quoting you. As the WMD Commission 
stated in the report, it is unacceptable that now nearly 10 
years after September 11, we do not have a comprehensive, 
National strategy to counter the threat that WMD poses to our 
country. No one could put it better, Senator.
    One year later, and hopefully a little wiser, there is 
hope. I hope we will swiftly consider by this committee this 
legislation, and that jurisdictional turf battles will not stop 
the full House and Senate from passing the important 
legislation as soon as possible.
    Prevention, preparedness, protection, response, and 
recovery. That is what this bill is all about. It contains some 
important new provisions I would like, briefly, to highlight. 
It addresses the findings from the Government Accountability 
Office on the state of our biodefense enterprise and creates an 
entirely new top-down approach centered at the White House.
    This includes establishing a new special assistant to the 
President for biodefense who will be responsible for crafting a 
Federal biodefense plan and putting together a yearly cross-
cutting biodefense budget, which will help streamline cross-
agency efforts and improve efficiency.
    It includes a new provision that would allow the Secretary 
of Health and Human Services to make surplus vaccines with 
short shelf lives from our strategic National stockpile to our 
State and local first responders.
    As we all know, our police and firefighters are on the 
front lines of our homeland security, and if there is a 
biological attack, they will be the first ones on the scene. 
Ensuring that they are vaccinated will not only prevent them 
from harm but better enable them to assist others and other 
victims and perform their jobs.
    Passage of the legislation is not a silver bullet that will 
fully immunize us from the threats that a weapon of mass 
destruction poses to our country. Our first responders still 
lack a Nation-wide interoperable communications network.
    We have talked about it on this committee. We have had 
bipartisan support on this committee, and we still don't have 
it. It is not the fault of this committee. It is the fault of 
others in leadership, regardless of which party is in charge, 
of getting this through and seeing the significance of 
supporting and protecting the American people.
    Funding for our various homeland security State and local 
grant programs that help at-risk areas prepare and secure 
sensitive infrastructure are under severe funding constraints. 
We know that, but we must not back off what our 
responsibilities are.
    As the original Member of the Committee on Homeland 
Security, created in the wake of those attacks, and 
representing a district that lost 40 souls in the attacks, 
these issues are near and dear to my heart as they are to you.
    The committee, Congress as a whole, and the Executive 
branch must be committed to doing everything in our power to 
ensuring that something like this never happens again. We do 
know, Mr. Chairman, that when everything is a priority, nothing 
is a priority.
    So I count on your diligence and your forthrightness and 
your perseverance to get this thing through. Whatever I can do 
and whatever Peter can do, as another Chairman, we are at your 
beck and call.
    I thank the committee and thanks for listening.
    [The statement of Mr. Pascrell follows:]
        Prepared Statement of Honorable William J. Pascrell, Jr.
    Good morning, Chairman Lungren, Ranking Member Clarke, Chairman 
Bilirakis, and Ranking Member Richardson, and thank you for holding 
this important joint subcommittee hearing and for your invitation to 
testify this morning. I want to recognize the Chairman and Ranking 
Member of the full committee, Mr. King and Mr. Thompson, for their 
friendship and leadership on the committee and their stewardship of its 
important work.
    I also want to thank the committee for inviting Sheriff Richard 
Berdnik of Passaic County, New Jersey, to testify before you today on 
the subsequent panel. Passaic County is a part of the Jersey City/
Newark Urban Area Security Initiative, one of the six Tier I regions 
considered at greatest risk of a terrorist attack. I know that the 
sheriff will be able to provide you all valuable insights into the role 
that his Department plays in preparing for and responding to a 
terrorist attack, and the effectiveness of the Federal Government's 
State and local partnership efforts.
    I am here this morning to discuss the WMD Preparedness and 
Prevention Act of 2011, which I, along with Chairman King, will be 
introducing tomorrow. I am proud of all the work that went into this 
legislation, and I am especially proud that it is bipartisan. Democrats 
and Republicans may not always agree on every issue, but I think there 
is broad consensus on this committee, from Members of both parties, 
that the safety and security of our country is our highest priority.
    Last year, Chairman King and I came together to craft legislation 
after the release of the WMD Commission's report: ``World at Risk.'' 
Under the leadership of Senator Bob Graham and Senator Jim Talent, that 
report gave us some very sobering findings. I am happy to see my former 
Small Business Committee Chairman, Senator Talent, here today. 
Particularly, their finding that under our current readiness, a WMD 
attack is ``likely'' to occur by 2013, gave us all pause and really 
gave us a sense of urgency that action was needed.
    Today, even after the death of Osama bin Laden, we know that terror 
groups like al-Qaeda are still out there plotting attacks against 
Americans, and that they continue to be committed to obtaining nuclear 
and biological weapons. The Commission gave the country particularly 
low marks for bioterrorism preparedness and our country's oversight of 
laboratories working with some of the most dangerous diseases.
    Both Mr. King and myself, being Members from the New York/New 
Jersey region, are all too familiar with the devastation and tragedy 
that surrounds an attack with a weapon of mass destruction. Sheriff 
Berdnik was a 9/11 first responder himself. We must do everything in 
our power to ensure that nothing like 9/11 ever happens on our soil 
again. The thought of a WMD attack anywhere in our region is too 
horrific for words.
    Using the WMD Commission's report as a guide, Chairman King and I 
first introduced this legislation back in 2010, with the support and 
endorsement of the Commissioners. While our bill passed this committee, 
it was, unfortunately, not considered by the entire House of 
Representatives. This, to me, is unacceptable.
    As the WMD Commission stated in their report, it is unacceptable 
that now nearly 10 years after September 11, we do not have a 
comprehensive National strategy to counter the threat that WMD poses to 
our country. One year later, and hopefully a little wiser, we are 
reintroducing this bill. I hope it will be swiftly considered by this 
committee, and that jurisdictional turf battles will not stop the full 
House and Senate from passing this important legislation as soon as 
possible.
    This year's legislation retains the comprehensive approach to 
securing our country against weapons of mass destruction: Prevention 
and Preparedness, Protection, Response, and Recovery. The updated bill 
recognizes some of the progress that has been made by the 
administration over the last year, particularly in laboratory 
biosecurity, and also contains some important new provisions that I 
would like to highlight.
    Importantly, the bill addresses findings from the Government 
Accountability Office on the state of our biodefense enterprise and 
creates an entirely new, top-down approach centered at the White House. 
This includes establishing a new Special Assistant to the President for 
Biodefense who will be responsible for crafting a Federal biodefense 
plan, and putting together a yearly cross-cutting biodefense budget, 
which will help streamline cross-agency efforts and improve efficiency.
    The bill also includes a new provision that will allow the 
Secretary of Health and Human Services to make surplus vaccines with 
short shelf lives from our Strategic National stockpile to our State 
and local first responders. As we all know, our cops and firefighters 
are on the front lines of our homeland security, and if there is a 
biological attack, they will be the first ones on the scene. Ensuring 
that they are vaccinated will not only prevent them from harm, but 
better enable them to assist other victims and perform their jobs in 
the response. All across the bill, language has been streamlined to 
better integrate our State and local first responders and to encourage 
their participation.
    Passage of the legislation is not a silver bullet that will fully 
immunize us from the threats that a weapon of mass destruction poses to 
our country. For example, our first responders still lack a Nation-wide 
interoperable communications network, one of the recommendations of the 
9/11 Commission and an essential component of any response. Chairman 
King has introduced legislation that I strongly support to establish 
this network and I hope that Congress considers and passes it soon.
    Additionally, funding for our various homeland security State and 
Local grant programs that help at-risk areas prepare and secure 
sensitive infrastructure, are under severe funding constraints. Grant 
programs for our Cops and Firefighters to purchase equipment and ensure 
they have adequate personnel are slated for cuts. We must find the 
funding in the Federal budget to ensure that these programs are fully 
funded, and that we have the resources we need to protect our country.
    In the years since the attacks on 9/11 we have all said, on a 
bipartisan basis, that our homeland security strategy must be proactive 
and not simply reactive. As an original Member of the Committee on 
Homeland Security, created in the wake of these attacks, and 
representing a district that lost 40 souls in the attacks, these issues 
are near and dear to my heart. The committee, Congress as a whole, and 
the Executive branch must be committed to doing everything in our power 
to ensuring that something like this never happens again. Passing this 
bill into law will go a long way towards establishing a comprehensive 
protection and response plan to a WMD attack, and it must be enacted as 
soon as possible.
    Again, thank you for the opportunity to testify today.

    Mr. Lungren. Thank you, very much.
    Thank you, Congressman Pascrell, for your testimony and 
your leadership on this issue along with the Chairman of our 
full committee, Mr. King.
    We will excuse you. We won't subject you to questions, and 
we will move on to Panel II. Thank you very, very much.
    We are, of course, joined by the Ranking Member of our 
subcommittee on Cybersecurity, Infrastructure Protection, and 
Security Technologies, the gentlelady from New York, Ms. 
Clarke. If you have a statement to make at this time, we would 
be happy to receive it. Meanwhile, we excuse Mr. Pascrell and 
invite the next panel to come forward.
    Ms. Clarke of New York. Thank you, very much, Mr. Chairman.
    To Chairman Lungren and Chairman Bilirakis, to Ranking 
Member Richardson, and to my colleague present, good morning. 
You know, Chairman King, Ranking Member Thompson, Chairman 
Lungren, Chairman Bilirakis, and my fellow Ranking Member, Ms. 
Richardson it is important for the safety of our country to 
come together today in this joint hearing and to discuss the 
legislation of our colleague and former committee Member, 
Congressman Pascrell.
    His hard work on a very complex issue has resulted in 
legislation that many of us can and will support. Thank you for 
calling this hearing.
    The WMD Prevention and Preparedness Act of 2011 is an 
example of what we can achieve when we pull together instead of 
pulling apart. It is an example of what can be accomplished 
when we draw circles of interest instead of boxes of exclusion.
    Those of us who represent high-density populations of the 
Northeast are acutely aware of our shared vulnerability, how a 
single weapon of mass destruction can devastate huge 
populations and render infrastructure that serves millions of 
our citizens unusable. Coming from Brooklyn, New York, having 
been in New York City during the 9/11 attack, this hits home 
for me, profoundly.
    I am proud that this committee, who passed this bill in the 
110th Congress with Members from all walks of life and 
political persuasion, can take the findings of experts and 
colleagues as we have received from the commission on the 
prevention of weapons of mass destruction, proliferation, and 
terrorism, and use that kind of fact-finding and 
recommendations to pass legislation, with truly bipartisan 
support.
    Senator Bob Graham of Florida and Senator Talent, who are 
with us today, chaired the commission and gave selflessly to 
this effort, devoting time and, most importantly, their 
intellect toward a comprehensive look at gigantic challenges 
posed by the thought of indiscriminate use of weapons of mass 
destruction on innocent civilians.
    I think the work they accomplished is something we are all 
proud of, but I am not here to paint a rosy picture. The 
scenarios before us are sometimes hard to grasp, especially 
extraordinarily complex ones involving chemical, biological, 
radiation, and nuclear threat.
    The effect on our citizens are unimaginable, but it is the 
difficult job of these subcommittees to imagine these events 
and figure out a way to protect our citizens. Of particular 
interest to those of us from the Northeast are programs built 
around the Securing Our Cities initiative, the unified effort 
among Federal, State, and local law enforcement in New York, 
New Jersey, and Connecticut to defend against the threat of a 
radiological or nuclear device.
    DHS, the New York City Police Department, the Port 
Authority of New York and New Jersey, and officials from three 
States and 91 localities are involved in that partnership.
    The more law enforcement officials who have the ability to 
detect and are on the lookout for nuclear radiological material 
and are in touch with health officials monitoring biological 
and disease incidents in and around New York City, the better 
chance law enforcement has to prevent a successful attack.
    I expect that we are going to hear some on-the-ground 
testimony today from the sheriff from Passaic County, because 
he is charged with carrying out the day-to-day preparation and 
response plans for the kind of horrific event we contemplate in 
these scenarios.
    We must find ways to fund our front line of defense against 
the kind of horrendous events we planned for and not how we can 
greatly or arbitrarily reduce the resources we need to protect 
our families.
    So I thank you, Mr. Chairman, and I yield back.
    [The statement of Ranking Member Clarke of New York 
follows:]
         Prepared Statement of Ranking Member Yvette D. Clarke
                             June 23, 2011
    Chairman King and Ranking Member Thompson, Chairman Lungren, and 
Chairman Bilirakis, and my fellow Ranking Member Richardson, it's 
important for the safety of our country to come together today in this 
joint hearing to discuss the legislation of our colleague and former 
committee Member, Congressman Pascrell. His hard work on a very complex 
issue has resulted in legislation that many of us can support. Thank 
you for calling this hearing.
    The WMD Prevention and Preparedness Act of 2011 is an example of 
what we can achieve when we pull together, instead of constantly 
pulling apart. It's an example of what can be accomplished when we draw 
circles of interest instead of boxes of exclusion.
    Those of us who represent the high-density populations of the 
Northeast are acutely aware of our shared vulnerability, how a single 
weapon of mass destruction can devastate huge populations, and render 
infrastructure, that serves millions of our citizens, unusable.
    I'm proud that this committee, who passed this bill in the 110th 
Congress, with Members from all walks of life and political 
persuasions, can take the findings of experts and colleagues, as we 
have received from the Commission on the Prevention of Weapons of Mass 
Destruction Proliferation and Terrorism, and use that kind of fact-
finding and recommendations to pass legislation with truly bi-partisan 
support.
    Senator Bob Graham of Florida and Senator Talent, who is with us 
today, chaired the Commission and gave selflessly to this effort, 
devoting time and most importantly their intellects, toward a 
comprehensive look at gigantic challenges posed by the thought of 
indiscriminate use of a weapon of mass destruction on innocent 
civilians. I think the work they accomplished is something we are all 
proud of.
    But I'm not here to paint a rosy picture, the scenarios before us 
are sometimes hard to grasp, especially extraordinarily complex ones 
involving chemical, biological, radiation, and nuclear threats, and 
their affects on our citizens are unimaginable. But it is the difficult 
job of these subcommittees to imagine these events, and figure out a 
way to protect our citizens.
    Of particular interest to those of us from the Northeast are 
programs built around the Securing our Cities Initiative, the unified 
effort among Federal, State, and local law enforcement in New York, New 
Jersey, and Connecticut to defend against the threat of a radiological 
or nuclear device. DHS, the New York Police Department, the Port 
Authority of New York and New Jersey, and officials from three States 
and 91 localities are involved in this partnership.
    The more law enforcement officials who have the ability to detect 
and are on the lookout for nuclear and radiological material, and are 
in touch with health officials monitoring biological and disease 
incidents in and around New York City, the better chance law 
enforcement has to prevent a successful attack.
    I expect we are going to hear some on-the-ground testimony today 
from the sheriff from Passaic County, because he is charged with 
carrying out the day-to-day preparation and response plans for the kind 
of horrific events we contemplate in these scenarios.
    We must find ways to fund our front line of defense against the 
kind of horrendous events we plan for, and not how we can glibly and 
arbitrarily reduce the resources we need to protect our families.
    Thank you Mr. Chairman, and I yield back.

    Mr. Lungren. I thank the gentlelady for her statements.
    Once again, all Members are reminded they may submit 
comments for the record.
    Now we have an opportunity to hear from our second panel. 
Three distinguished gentlemen. The first is Senator Jim Talent, 
who is vice president of the WMD Center and a distinguished 
fellow at Heritage Foundation where he specialized in military 
readiness issues.
    From May 2008 to February 2010, Senator Talent served as 
vice chairman of the Congressionally-authorized Commission on 
the Prevention of the Weapons of Mass Destruction, 
Proliferation and Terrorism, and the report that they gave us, 
which I note is outlined in red, which usually indicates 
urgency--and the fact that your report card is in blue is no 
indication that it is less urgent or that consistency is less 
necessary, and I want to thank you for your contribution to us 
in that regard--elected by citizens in Missouri, you served 4 
years in the U.S. Senate and 8 years in the House of 
Representatives. So we welcome you back.
    Dr. Robert Kadlec served 26 years as an officer and 
physician of the United States Air Force where he held senior 
positions in the Executive and Legislative branches. Until 
January 2009, Dr. Kadlec served as special assistant to the 
President and senior director for biodefense policy on the 
Homeland Security Council.
    While with the Homeland Security Council, Dr. Kadlec 
drafted the National biodefense policy for the 21st Century, 
which did become the Homeland Security Presidential Policy 
Directive 10. He was also staff director of the Senate 
Subcommittee for Bioterrorism and Public Health.
    Richard Berdnik is the sheriff of Passaic County, New 
Jersey, the position he has held since the beginning of 2011. 
Prior to this position, he led a distinguished 28-year career 
in law enforcement for the City of Clifton, New Jersey. He is a 
graduate of the FBI National Academy.
    While with the City of Clifton Police Department, he led a 
team of officers in response to the terrorist attacks of 9/11, 
and we do thank you for your past service as well as your 
continuing service.
    The three of you will be invited to testify in the order in 
which you were introduced. We would ask you to try and keep 
your comments to around 5 minutes. We have your prepared 
written statements. They will be made fully a part of the 
record, and after you have completed your testimony, we will 
have a round of questions.
    So, Senator Talent, we would recognize you first.

   STATEMENT OF SENATOR JIM TALENT, VICE CHAIRMAN, WMD CENTER

    Mr. Talent. Thank you, Mr. Chairman. Thanks to both 
Chairmen and both Ranking Members, and to the whole committee--
the subcommittee and the committee--for consistently acting 
with an urgency that we at the WMD Center thinks is justified 
by this threat.
    Former Senator Bob Graham is the chairman of that center. I 
am the vice chairman. Senator Graham could not be here today, 
but he joins me in my comments, and I would ask that you would 
submit the full comments in the record. I will just cover a 
couple of points. One of them, and you covered pretty well in 
your opening statement--in fact, several of the leaders of the 
committee did--the history of the WMD Commission.
    We were created by you all and the other body as a follow-
on to the 9/11 Commission in an attempt to answer the question 
the 
9/11 Commission asked, which is, you know, what happens if the, 
you know, worst people get the world's worst weapon?
    Bob and I were appointed as the chairman and vice chairman 
of that. We work together in the Senate--been a real pleasure 
working with him on that--the nine of us on that committee--it 
was thoroughly bipartisan--our report was unanimous.
    We didn't go into that with any bias in favor of looking in 
particular at the biothreat. As a matter of fact, I didn't know 
that much about it. I was more familiar with the nuclear 
threat. But after almost a year of deliberations, you know, we 
looked at all the material that you all look at at a regular 
basis.
    We interviewed witnesses, traveled all over the world, and 
did reach the conclusion which you recited in your opening 
statement that the danger of a WMD attack somewhere in the 
world is growing, that it will reach a probability--become more 
likely than not--by 2013, by which we meant, it is just a 
short-term threat; it is not a long. I mean, it is not 
something that is 20 years down the road. It is now.
    In our judgment, it is more likely to be a bioattack than 
anything else. We base that both on direct intelligence and on 
the fact that a biological weapon is easier than a nuclear 
weapon to develop. It is easier to deploy, and it is easier to 
stockpile.
    It doesn't mean that a nuclear threat is beyond their 
capability. It just means that the bioweapon is easier, and 
everything that we have seen since then has reinforced our 
view, both of the threat and of the fact that we have to pay 
particular attention to the biothreat.
    Chairman and I were talking before the hearing, and it is 
my opinion that the cyber threat and the biothreat are the two 
biggest. We should try and prepare for all of them, but they 
are the two biggest.
    Our conclusion is--regarding the threat--was affirmed in 
every particularity by the then-Director of National 
Intelligence within a few weeks after we made it.
    After we issued the first report with recommendations, as 
the Chairman mentioned, we were asked by the leadership of 
Congress to go back and to review the Government's success or 
failure of progress in implementing our recommendations. Bob 
and I both said that we would do it, but we made clear to the 
Speaker, the Minority Leader, and the Majority Leader of the 
Senate that if we gave our assessment, we were gonna say what 
we thought. If they didn't want that, they shouldn't 
reconstitute the commission.
    Well, they did want it, and we gave our assessment. While 
there was progress in certain areas, we did give a failing 
grade to the Government's preparation for a bioattack. As you 
know, Mr. Chairman, preparation is hugely important here, not 
only because, you know, we can limit the loss of life and 
damage should an attack occur, but because if you prepare well 
enough, a biothreat is no longer a weapon of mass destruction.
    It is a terrible weapon and it can kill people, but if it 
doesn't have a big enough impact, it is not a weapon of mass 
destruction and, therefore, it is much less likely that it will 
be used. So preparation in this context, unlike the nuclear 
context, is deterrence. This is a point that Senator Graham and 
I have made on numerous occasions.
    We have turned the WMD Center into a nonprofit, which is 
the same thing that happened with the 9/11 Commission. I am not 
going to go into great lengths, but we are preparing a really 
stem-to-stern new report card, or evaluation, of the 
Government's efforts.
    Lynne Kidder, who is the president of the WMD Center is 
with us today, is leading a team of people. We have pulled 
together experts from all across the Government and nonprofit 
world to look at the whole chain of resilience.
    First thing they are doing is identifying what are the 
metrics of success. You know, what does progress mean in this 
context? Then they are going to measure how we are doing 
against those metrics. That report is going to come out. That 
assessment is gonna come out this fall, and we think it will 
give you all the best assessment, you know, stem-to-stern, end-
to-end strategic assessment of our resiliency chain that you 
have ever had.
    I can't think of a committee that has done more to try and 
solve this problem and achieve progress. I don't have much 
time. I do want to say that we are very grateful for Mr. 
Pascrell and Mr. King and all of you for the WMD Bill. It 
addresses a number of key areas.
    Just, very briefly, the National Biodefense Plan is very 
important. The reforms in biosurveillance and detection, hugely 
important. We do a lot of detection, a lot of surveillance, but 
it is not integrated enough; it is not efficient enough, and it 
is not real-time enough.
    The reality is that we cannot have confidence today that we 
will know an attack has occurred within the period of time we 
need to know to do something about it. Just go look back at 
H1N1. Anytime the President called up the Center for Disease 
Control and asked them how many people were sick from that 
disease, the reality is, they couldn't tell him. They didn't 
know.
    We had months to prepare for that. We are not gonna have 
months to prepare for this. The first responder guidance, 
hugely important. The sheriff will probably talk about that. 
Real solid thinking in the bill about environmental cleanup and 
what the standards are; how clean is clean. We have not worked 
on that, and we don't have adequate guidelines for first 
responders.
    I will just conclude by saying this, and I thought of it 
because of what my good friend, Bill Pascrell, said about 
priorities--that if everything is a priority, nothing is. 
Absolutely correct. Well if something is a priority, it means 
that you are willing to sacrifice other things--even other good 
things--if you have to in order to get it, right? I mean, my 
15-year-old is a big basketball player, and it is a priority 
for her, which means she sacrifices other extracurricular 
things she could be doing to practice basketball. Okay?
    If this is a priority that we think is justified by the 
threat, and nobody has denied that this--at any hearing like 
this--that this threat is as bad as we think it is. Well, it 
means you have to sacrifice other things. Maybe you sacrifice 
your jurisdictional turf.
    Maybe the FDA is just gonna have to figure out a way to 
approve these drugs quicker, even though it would like to use 
its traditional standards, maybe it has got to do some solid 
thinking. Maybe it means, even in an era of very difficult 
budgets, that in areas where we need extra funding, you know, 
we find it, because it is a priority.
    So I think the Congressman from New Jersey had it exactly 
right, and I am grateful for the opportunity to be here. Sorry 
I went on a little too long.
    [The statement of Mr. Talent follows:]
 Joint Prepared Statement of Senator Jim Talent and Senator Bob Graham
                             June 23, 2011
    Mr. Chairman and distinguished Members, I am speaking today as the 
vice chairman of the Bipartisan WMD Terrorism Research Center, better 
known as the WMD Center. Even though former Senator Bob Graham (D-FL), 
the chairman of the WMD Center could not be here today, please consider 
this our joint statement.
    The WMD Center is a not-for-profit research and educational 
organization that Senator Graham and I founded, along with Colonel 
Randy Larsen, USAF (Ret), at the conclusion of the Congressional 
Commission on the Prevention of Weapons of Mass Destruction 
Proliferation and Terrorism (WMD Commission) in 2010.
                             wmd commission
    In early 2008, the Commission was tasked by Congress to assess the 
risk of WMD terrorism and to recommend steps to prevent a successful 
WMD attack on the United States. During its tenure, the WMD Commission 
interviewed hundreds of experts and reviewed thousands of pages of 
research and testimony. Each commissioner quickly realized that the 
United States was facing a growing threat of biological terrorism--a 
conclusion that was unexpected for many. We learned that the lethality 
of a sophisticated biological weapon could rival the lethality of a 
Hiroshima-sized bomb, and that the development and delivery of such a 
bioweapon would require far less money and technical expertise than a 
nuclear weapon.
    In the commission report, World at Risk, we stated that terrorists 
are more likely to obtain and use a biological weapon than a nuclear 
weapon. In the late fall of 2008, we concluded that unless we act 
urgently and decisively, it was more likely than not that terrorists 
would use a weapon of mass destruction somewhere in the world by the 
end of 2013. On December 2, 2008, the Director of National Intelligence 
publicly agreed with this assessment in a speech at Harvard University.
    In an unprecedented act, Congress extended the authorization of the 
WMD Commission and assigned it a new task: To communicate its 
assessment, explain the evidence behind it, and to work with Congress 
and the administration to enact the Commission's recommendations. In 
other words, we were charged with encouraging Congress and the 
administration to take decisive action to prevent such an act of mass 
lethality from taking place on American soil, and should such an attack 
occur, to limit its consequences.
    In 2009, we worked closely with Congress and the administration to 
focus on the threat of bioterrorism. As our second year of work drew to 
a close, we released a report card that assessed progress on a wide 
range of WMD issues; however, the grade that garnered the most 
attention in the January 2010 report was the failing grade for 
America's preparedness to respond to a biological attack.
            the wmd center and its bio-response report card
    We founded the WMD Center to serve as an honest broker between 
Government and the American public to ensure individual, community, and 
National progress in strengthening the Nation's capabilities to respond 
to biological threats. Our first major research project, scheduled for 
completion in mid-October, is a report card focused solely on America's 
capability to respond to a large-scale biological event, whether man-
made or naturally-occurring.
    Lynne Kidder, the President of the WMD Center, is leading a highly 
qualified team of experts in this study. During Phase I, our project's 
board of advisors were charged with designing the metrics for 
evaluating bio-response capabilities. Advisors include a former Deputy 
Commissioner of the Food and Drug Administration, the former Chief 
Counsel at the Centers for Disease Control and Prevention, the former 
Special Assistant to the President for Biodefense (in the Clinton and 
Bush Administrations), the Founding President of the Albert B. Sabin 
Vaccine Institute, the Director of Disaster Medicine at the American 
Medical Association, and the Director of RAND Health. (A complete list 
of advisors is available at www.wmdcenter.org).
    In Phase II of our study, a separate, independent team of subject 
matter experts will collect data and provide analysis in each of seven 
categories:
  <bullet> Detection and situational awareness;
  <bullet> Diagnosis and attribution;
  <bullet> Communicating actionable information;
  <bullet> Medical countermeasures (development and production of 
        vaccines and therapeutics);
  <bullet> Distributing/dispensing medical countermeasures;
  <bullet> Medical treatment and response;
  <bullet> Environmental remediation.
    In order to ensure rigorous review and diverse perspectives, this 
second team includes experienced practitioners and thought leaders from 
academia, leading think tanks, former Government officials, and private 
sector organizations that specialize in biodefense. These experts will 
provide their analyses and insights to the WMD Center Board of 
Directors, who will ultimately determine final grades, recommendations, 
and report content.
    Our report card will be released in mid-October. It will consist of 
three parts: A review of the threat, an assessment of America's current 
capabilities to effectively respond to act of bioterrorism, and 
recommendations that will set us on the course to reach our goal: 
Removing bioterrorism from the category of WMD. While we will never be 
able to remove nuclear weapons from the category of WMD, it is within 
our power to remove bioterrorism from the category.
    Given the ubiquity of select agents readily found in nature and the 
rapid advances in biotechnology that allow non-state actors the 
capability to produce sophisticated bioweapons, a major part of our 
biodefense strategy must be based on building a level of preparedness 
that will effectively remove bioweapons from the category of WMD. An 
attack would still cause casualties, but it would not be of a magnitude 
that would change the course of history.
    This is a realistic and achievable goal.
                                wmd bill
    The WMD Center is not in the business of assigning grades to 
specific pieces of legislation; however, if we were in that business, 
this carefully-crafted, comprehensive bill would receive high marks. If 
all articles within this legislation were to become law, it would 
represent progress for America's biodefense capabilities.
    We do understand the challenges of moving this legislation through 
the various committees and subcommittees that will claim oversight 
responsibility. It should be noted that the 9/11 Commission warned of 
the Byzantine jurisdictional assignment of Congressional oversight of 
homeland security. In January 2010, the WMD Commission gave Congress a 
failing grade for the lack of response to its recommendation: ``reform 
Congressional oversight to better address intelligence, homeland 
security, and crosscutting 21st Century National security missions''.
    The WMD Center fully supports many of the provisions of the 
bipartisan bill you've introduced today. In particular, we support your 
call for the re-establishment of the position previously called, 
Special Assistant to the President for Biodefense. We are also pleased 
with other provisions that are consistent with WMD Commission 
recommendations, including requirements for:
  <bullet> A National biodefense plan;
  <bullet> A National bio-surveillance strategy;
  <bullet> A comprehensive cross-cutting biodefense budget analysis;
  <bullet> A National intelligence strategy for countering biological 
        threats;
  <bullet> Improvements in how the Government communicates the threat 
        of bioterrorism;
  <bullet> Improved detection capabilities;
  <bullet> First responder guidance on WMD;
  <bullet> Guidelines on environmental cleanup and restoration.
                             the road ahead
    While we enthusiastically support this legislation, we also must 
ask, is it enough? This legislation will help move the Nation toward 
the WMD Center's goal of removing bioterrorism from the category of 
WMD, but it will not get us all the way there. We will not reach this 
goal during the tenure of the 112th Congress, but rather, it will 
require a long-term commitment. We must ensure that the legislation and 
policies we enact today and each year forward lead us toward that goal.
    It is difficult to envision improvement without appropriate 
leadership and organizational structure. The 2008 report of the Project 
on National Security Reform, Forging a New Shield, examined the 
``uneven performance of the Federal Government'' during several post-
cold war National security scenarios, from 9/11 to Katrina. The report 
concludes:

``It is facile to blame all these regrettable outcomes on particular 
leaders and their policy choices. Leadership and judgment matter, to be 
sure, but as this Report demonstrates, no leader, no matter how 
strategically farsighted and talented as a manager, could have handled 
these issues without being hampered by the weaknesses of the current 
system.''

    While the WMD Center fully supports your call to re-establish the 
position of Special Assistant to the President for Biodefense, we 
understand that doing so will not fix all the deficiencies in 
leadership and organizational structure for America's biodefense 
enterprise. These will be among the most important issues we consider 
in the assessment and recommendations of our report card.
    We are fortunate to have the experience and wisdom of 2 dozen of 
America's top biodefense and public health experts assisting our 
project, but we are also considering the findings of recent reports by 
the National Biological Science Board, the National Academies, the 
Defense Science Board, and others.
    Senator Graham and I look forward to providing you our assessments 
and recommendations in October. While I can't provide specific details 
today, I can predict that some of the recommendations will require 
neither authorization nor appropriations, and yet will provide 
significant improvements in capabilities. Other recommendations will 
require Congressional authorization, and we know that will be 
challenging given multiple committees with jurisdiction. Some 
recommendations will require more funding--a huge challenge in this 
fiscal environment. We will talk about partnerships between the public 
and private sectors, and while that has been a great bumper sticker for 
the post 9/11 era, it has proven far more challenging to implement.
                           multiple benefits
    The good news is that many of our recommendations will have 
multiple benefits for our families and local communities, whether or 
not they experience a large-scale bioterrorist attack. Improvements in 
the rapid diagnosis of disease, the capability to quickly produce safe 
and effective vaccines and therapeutics, and increased surge capacity 
in our medical care systems will benefit us all--for we know with 
certainty that Mother Nature will present biological threats. These no-
regret initiatives will be a great legacy for our children and 
grandchildren, and will also help keep America at the leading edge of 
the biotech revolution.
                   the growing threat of bioterrorism
    Removing bioterrorism from the category of WMD will neither be 
quick nor easy, but it is vital to both America's economic and National 
security. I would remind you that bin Laden had a background in 
construction. It shouldn't be surprising that he chose to attack 
buildings in America, because he understood what damage could be 
wrought by flying fully-fueled, wide-body airplanes into those 
structures. Al-Qaeda's new leader is just as determined to attack 
America. His formal training was in medicine and infectious disease--
one more reason we worry about bioterrorism. But this is not just about 
al-Qaeda.
    If the FBI is correct in its assertion that Dr. Bruce Ivins was the 
sole perpetrator of the 2001 anthrax letter attacks, then a single 
individual with no training or experience in weaponizing pathogens, and 
using equipment readily available for purchase on the internet, was 
capable of producing high-quality, dry-powdered anthrax. The only 
difference between producing enough material for several envelopes and 
enough material to attack a city is just a matter of a few months' 
production work in a laboratory, rather than the few hours of late 
night work cited by the FBI investigation.
    The bottom line on the feasibility of bioterrorism is quite clear. 
Today, terrorists have ready access to pathogens, the capability to 
weaponize them, and the means to effectively dispense a biological 
weapon. There is no question on intent.
             removing bioterrorism from the category of wmd
    It is well within the capacity of our Nation to address this 
threat. The issue here is less a question of resources or knowledge 
than it is one of leadership and purpose. Our Nation must recognize 
that the danger of a bioattack against the American homeland is a high-
priority threat.
    At the explicit request of the leaders of Congress, the WMD 
Commission recommended the steps necessary to defend the Nation against 
that threat. The WMD Center report card will offer even more specific 
recommendations this fall. The question is the same as when the WMD 
Commission issued its first report in December 2008: Will our leaders 
take bold actions commensurate with the seriousness of this threat?

    Mr. Lungren. No, no, no. Thank you, very much. You don't 
have to tell the gentleman from New Jersey he has it exactly 
right, but we appreciate that.
    Mr. Talent. I go back long enough for them to--he knows I 
haven't always said that about everything he believes. But I 
think he is correct on this one.
    Mr. Lungren. Dr. Kadlec.

STATEMENT OF ROBERT P. KADLEC, FORMER SPECIAL ASSISTANT TO THE 
                    PRESIDENT FOR BIODEFENSE

    Dr. Kadlec. Well, thank you, Mr. Chairman, and thank you, 
Representative Clarke, and the Members of the committee. I just 
want to say what a privilege it is today to meet before you as 
a private citizen having served 26 years in the military as a 
colonel, I haven't worn that title very often, and this is one 
of the occasions. Thank you.
    I come here, really, to explain, or at least to talk about 
one part of your bill, and that is the biodefense enterprise. 
Having served as one of the three special assistants to the 
President for biodefense during the Bush administration, it was 
really our principle responsibility to ensure that the Federal 
Government worked as one in all domestic preparedness efforts 
for deliberate biological attacks and natural pandemics.
    My job was literally to keep the eye on the biodefense ball 

24/7. I certainly welcome this opportunity to come to you 
today, and certainly acknowledge the bill that is before you 
from Mr. Pascrell and Mr. King, and just basically say that 
there are going to be parts of the bill--unfortunately not all 
the parts of the bill--that I can specifically speak to today, 
but at least highlight those that will make a significant 
difference in our biopreparedness status today.
    I have the unenviable position 30 June 2008 to actually 
have to tell President Bush and members of the senior staff 
that after 8 years of intense effort, numerous numbers of 
political or policy documents and directives--$50 billion, 
approximately, in funding, that if we experienced a moderate to 
large scale anthrax attack in any major metropolitan area 
today, than in 2008, that it would probably result in 
catastrophic loss of life, and potentially loss of use of that 
city for many months, maybe years.
    So, it is with that--and again, to acknowledge the role of 
the WMD commission, who have really played an integral part in 
keeping the eye on the ball as we have moved forward--is to 
note that, unfortunately, I was the last special assistant to 
the President for biodefense policy.
    By the way, this is not the first time it happened. Because 
during the transition from the Clinton to Bush administration, 
that position was also eliminated. It was during the Clinton 
administration that it was first created in 1998, and a fellow 
by the name of Admiral Ken Bernard held that position. In doing 
so, he basically began what would be the precursors of the 
Homeland Security Council and the domestic preparedness 
efforts.
    But again, this is not a partisan issue. It is just a 
matter of perspective, and I am afraid it represents the 
perspective that, somehow, we have not fully integrated the bio 
problem as part of our National security priorities, to your 
point, sir.
    That, I think, in some ways, the fact that there is not a 
position now in the White House with that title, certainly 
doesn't prevent progress. In fact, I would like to highlight 
some progress that has been made. First and foremost, there 
have been a couple of new Presidential directives that build on 
the ones that were originally issued by President Bush--one in 
National preparedness, PPD No. 8--as well as a couple of 
Executive Orders that deal with medical countermeasure 
distribution as well as biosecurity.
    I just have to say that also that the Obama administration 
effectively managed the H1N1 pandemic, and fortunately, it was 
a particularly not virulent one. But the point is that the 
special assistant's role is not one that is really seen in 
emergencies, but really in the mundane, day-to-day events in 
the White House and are manifest in other ways.
    I will point those out. First of all, if you see how the 
biodefense portfolio is being managed today, it is not being 
seen as a National security priority. If you look how OMB has 
classified these programs, they are not subject to the same 
consideration that National security or homeland security is 
given, but actually has other health care programs. I think it 
reflects the lack of priority.
    The other way that, again, the role of the special 
assistant plays in a senior political appointee--whether it is 
a special assistant or not--it basically plays in this thing is 
to basically educate, advocate, and coordinate, not only across 
interagency, but across the White House.
    So, unfortunately, today, we have seen very effective 
communications, plans, programs subject to the nuclear threat 
that is out there today, but we haven't seen similar efforts 
for the biological problem. So we have had no Prague speech, we 
have had no biological summit on this issue.
    So, with that, I think one of the effective tools that you 
have introduced into your bill is this idea of a National 
biodefense plan. So, in some ways, I think it does demand that 
we have--and, by the way, one does not exist today, so it is 
necessary. The other thing is, because of extremely valuable 
forcing function that basically we have experienced before, 
particularly the preparations around the influenza pandemics. 
So that is one area.
    The other area is, really, the cross-cutting budget 
proposal that you have. It is a mystery, not only to senior 
members of the policy community in the White House, but also to 
some members of OMB--what are we spending in certain areas in 
the biodefense portfolio?
    Areas like basic medical research and other areas, and some 
of the areas are very under represented, and Senator Talent 
mentioned the issue about environmental clean-up, an area that 
deserves particular mention.
    I would just like to mention, because of time, quickly two 
other areas. One is in your bill and one maybe you should 
consider including in your bill, and that one is, particularly 
around the vaccination or pre-vaccination of first responders.
    We know that in some ways we have a safe and effective 
vaccine. We have surplus supplies in the strategic National 
stockpile that are at risk of basically going bad. Quite 
frankly, we should utilize those as we do for our front-line 
soldiers. To realize that when they go to places like Iraq, 
Afghanistan, or South Korea, that we afford them the best 
protection. It is just odd to me that our first responders 
don't deserve that in the major metropolitan areas that are at 
risk.
    The last group that I mentioned--and, again, it really does 
relate to the first responder community--is our emergency 
medical service community.
    Somewhat under-represented and under-appreciated, and just 
because of their nature and the fact that they really are--the 
small office in the Department of Transportation, they are 
really not eligible for a lot of the programs that we really 
would consider being front-line in this area, and that is 
subject to grants to either first responders or hospital 
preparedness grants.
    Somehow, we need to recognize them as a critical force 
multiplier that, quite frankly, to date has not been optimized 
and utilized in a way that could significantly bolster our 
capabilities to respond to these events. We know they are going 
to be there, and for some reason, we really haven't maximized 
their capabilities in that area.
    Simply, in closing, I would just like to say thank you. 
Fortunately, we have not experienced the biological attack on 
our homeland since the events of 9/11. I pray that we don't, 
but I think the reality is here, as Senator Talent has 
mentioned, that preparedness is deterrence. Because there is 
really no other means to either prevent necessarily or 
necessarily preempt these kind of attacks in the future.
    Thank you, very much, and I look forward to your questions.
    [The statement of Dr. Kadlec follows:]
                 Prepared Statement of Robert P. Kadlec
                             June 23, 2011
    Mr. Chairman and distinguished Members, I am speaking today as a 
private citizen having had the privilege and opportunity to be one of 
the three individuals who served as the Special Assistant and Senior 
Director for Biodefense Policy during President George W. Bush's 
administration. Retired Admiral (Dr.) Kenneth Bernard was the first and 
Dr. Rajeev Venkayya was the second. Dr. Bernard had the singular 
privilege of being the Special Advisor to the President's National 
Security on the National Security Council during the second term of 
President Clinton's administration. All three of us had the principle 
responsibility to ensure that the Federal Government worked as one in 
its domestic preparedness efforts for deliberate biological attacks and 
natural pandemics.
    I welcome the opportunity to appear before you today and to share 
some of my experiences and insights during my tenure. I would like to 
spend the preponderance of my time to comment on the Title I of your 
draft bill entitled ``The National Biodefense Enterprise.''
    First, I would like to acknowledge and compliment you Mr. Chairman, 
Members of your committee and staff on this bill. It represents another 
important step forward that the Nation should take to better prepare 
for an uncertain future. The recent announcement of Dr. Ayman al-
Zawahiri as the replacement to Osama bin Laden, by all accounts a less 
than mediocre leader at best but one who has and likely still aspires 
to attack the United States with anthrax.
    I would also like to take the opportunity to acknowledge the 
important contributions made by Senators Graham and Talent in the 
course of their leadership of the WMD Commission. I applaud their 
continued leadership and commitment in establishing the WMD Center and 
look forward to their evaluation of our bioterrorism preparedness 
efforts this fall.
    If there is a theme to my opening remarks, it is about leadership. 
This committee has demonstrated it with this and other hearings and the 
draft bill that seeks to improve our Nation's preparedness. Two former 
Senators have displayed it with their successive reports and their 
commitment to produce a preparedness report card. And hopefully the 
Zawahiri tenure as leader will not only be short-lived, literally and 
figuratively, but be the last leader for al-Qaeda.
    Regretfully, I was a last too. I was the last White House Special 
Assistant fully devoted to addressing the biodefense challenge. The 
position I held was eliminated during the transition from President 
Bush to Obama. This is not the first time a position of this type was 
eliminated. During the transition from President Bill Clinton to George 
W. Bush, the position that Admiral Ken Bernard held was eliminated from 
the National Security Council. I am convinced that the decision to 
eliminate a senior political White House position devoted to heath 
security was not a partisan decision. It was reversed following the 9/
11 attacks and the anthrax letter mailings. It does however, reflect 
that we have not quite yet achieved the maturity in our National 
security thinking to embrace the notion that certain health security 
issues rise to the level of being a first order National security 
priority. It also clearly demonstrates that today, the threat of a 
biological Hiroshima is not viewed with the same concern and urgency as 
the potential for nuclear one. But if you believe Senators Graham and 
Talent, it may be the catastrophe more likely to happen.
    Of the number of issues addressed in your bill, there is no more 
important one than the issue of leadership. The individual whose day-
in/day-out responsibility is to think about this problem and ensure 
that the U.S. Government is taking all necessary steps to either 
prevent a bioterrorist attack from happening; and if one should, making 
sure all the resources available can be mobilized quickly enough to 
mitigate needless morbidity and mortality. I have stated before that 
second only to defending the U.S. Constitution, protecting and saving 
American lives is the sacred duty of all those who serve in Government.
    It is certainly disappointing that despite the dangers cited by 
Senators Graham and Talent, no senior political White House official 
currently has the title or the sole duty to address the problem posed 
by biological weapons. To the credit of the Obama administration when 
confronted by the H1N1 pandemic, they were able to mobilize a number of 
career civil service and military detailees that helped guide the 
administration through the early days and weeks of that event. Those 
individuals from the Departments of Veteran Affairs (VA), Defense 
(DoD), Homeland Security (DHS), and Health and Human Services (HHS) 
performed magnificently and were appropriately recognized for their 
contributions. The current Deputy Homeland Security Advisor under John 
Brennan has demonstrated a deep understanding and personal commitment 
to the biodefense problem and has worked it tirelessly but frankly is 
only human and has a number of other important issues to manage day-to-
day.
    The real value of a senior political advisee for biodefense is not 
realized during an emergency. His or her contributions are made in 
small yet significant ways that are not likely apparent to outsiders. 
It is chairing meetings to update biodefense strategies, review plans, 
and resolve gaps or disputes among Federal departments and agencies. It 
is attending internal White House meetings concerning budgets, ensuring 
that key elements of the President's biodefense priorities are 
recognized and preserved. I have one anecdote to share from my tenure. 
While I was meeting with the senior political appointee who oversaw of 
the U.S. Government spending for civilian biodefense in the Office of 
Management and Budget (OMB) Health Programs office, I learned that he 
did not have a security clearance to read the periodic intelligence 
reports or attend briefings where classified information about the 
subject was discussed. Biodefense was only a very small part of his 
enormous responsibilities and budgets for Medicare, Medicaid, and 
Social Security. But it is the one part of his portfolio that had to do 
with National security and he had no insight into the threats he was 
responsible to mitigate. I helped him justify the need for a security 
clearance so he could hear and understand the nature of the 
bioterrorism threat. To the point, I served as the issue advocate 
within the White House. I was senior enough to be invited to the 
important meetings that detailees don't normally attend and I could 
raise the issue or a stink about the issue if I felt the President's 
agenda or interests were somehow being marginalized. I saw my role to 
educate, advocate, and coordinate among the White House offices as well 
as the Federal interagency. My job was keeping my eye on the biodefense 
``ball'' 24/7. Without such person, it is likely the issue will not 
necessarily be routinely discussed or considered.
    Therefore, it is appropriate for Congress to request the 
administration to request a National Biodefense Plan. Between the Bush 
and Obama administrations there have been a number of well-considered 
and -crafted policies pertaining to biodefense. If policies would solve 
the problem, we would be more than half-way there. But the devil is in 
the details. In 2004, Homeland Security Presidential Decision (HSPD) 10 
roughly outlined a number of steps that Federal departments and 
agencies should take. However those actions should be reviewed and 
refreshed. The good news is that there has been progress across 
biodefense domain, but I do not believe, nor does anyone who has 
followed this issue believe; we have done enough and are prepared. The 
excellent National Pandemic Influenza Implementation Plan serves as a 
useful model to look to for a future National Biodefense Plan.
    I certainly endorse the need for better visibility across the 
biodefense investments that are being made in related programs across 
the Federal Government. We have invested over $50 billion dollars and 
there are legitimate questions as to whether we spent too much in 
certain areas or overlooked others. Getting better insight into how we 
spending these dollars, particularly in light of the severe Federal 
deficit we are facing, is not only prudent but an imperative. Any money 
that we can save can surely be put toward a gap that exists in our 
current efforts. One area that deserves special attention in such an 
analysis is whether we are adequately resourcing efforts to remediate 
and recover from a biological attack. In the course of natural 
evolution of considering our preparedness and response to such an 
event, we have appropriately initially focused on the life-saving 
measures that must be taken. I am afraid not enough consideration has 
been given to the cost of clean-up. As witnessed during the 2001 
anthrax letter attacks, cleaning a couple of buildings cost over a 
billion dollars. The cost of cleaning a city or subway system following 
a large-scale anthrax release is mind-boggling. It is not clear that we 
know the costs of environmental cleanup or even how to do it.
    I would like to make special mention about the provision in your 
bill devoted to biosurveillance. I can not think of any one issue that 
we as a Federal Government have worked harder on than biosurveillance. 
It is critical element in our biodefense strategy: To warn of an 
impending pandemic, or detect a biological attack and guide our 
responses to both. I admit that we have not achieved our objective of 
collecting human, animal, and environmental health data, analyzing and 
sharing it with all the responsible stakeholders at the local, State, 
and Federal level. To say it is still a ``work in progress'' is an 
understatement. While there are a number of Department- and sector-
specific biosurveillance strategies, there is yet no comprehensive plan 
to knit them together into a National plan. I am heartened to know that 
there is now a Department of Defense detailee working on the White 
House National Security Staff whose full-time duty is addressing the 
biosurveillance issue. I think the draft bill's provision asking a 
National Biosurveillance Implementation Plan is needed and frankly 
overdue. Hopefully, the process to develop a plan will resolve the 
issues surrounding the National Biosurveillance Integration Center 
(NBIC) at DHS. Originally conceived to take all-source surveillance 
information concerning humans, animals, plants, and environment and 
develop a common operating picture or situational awareness that is 
shared with all Federal, State, and local stakeholders; it has not yet 
met this objective. The concern I have is ``throwing the baby out with 
the bath water'' that by doing away with NBIC, we fail to preserve the 
essential function it was created to perform.
    There are several other provisions included in your draft bill that 
deserve mention and support. Related to biosurveillance and 
specifically within your committee's jurisdiction is biodetection. 
Having been involved with the creation of the BioWatch Program now 
managed by the Office of Health Affairs in the Department of Homeland 
Security, I have watched with some concern about the receding tide of 
support and investment of this program. The current capabilities of the 
BioWatch system today in terms of timeliness and coverage are not 
optimal by any means. This was recognized when the program was 
conceived and deployed. The initial system, however, has served two 
incredibly important functions. First, it became a test bed for gaining 
experience and confidence in domestic environmental detection and 
improved local laboratory capabilities. There have been a number of 
environmental positives that demonstrate the sensitivity of the 
laboratory analyses. With that experience, the system and the protocols 
supporting it have been refined over time. Second, it has enlisted the 
public health, medical, and emergency management to work together to 
consider the challenge and opportunities to recognize a potentially 
devastating public health event. This evolution has not come easily. It 
has resulted from the dedication of DHS, CDC, and EPA civil servants 
working side-by-side with their State and local counterparts. 
Environmental detection alone is not sufficient to address the risks 
from biological attacks, clinical diagnosis, and laboratory 
confirmatory testing are critical adjuncts. I hope that as further time 
passes, the need to improve clinical laboratory diagnostics is viewed 
as a compliment rather than a competitor to the requirement for near-
real-time environmental detection.
    I also want to mention and endorse the committee's view on pre-
event vaccination, particularly with the currently available FDA 
approved anthrax vaccine. There is little dispute within the 
intelligence community that the greatest concern today is the risk from 
an anthrax attack. The Department of Defense has judged the risk so 
serious that military personnel are immunized against anthrax before 
deploying to Iraq, Afghanistan, and South Korea. It would seem 
similarly prudent to consider offering the same vaccine to domestic 
Federal, State, and local responders who may be at increased risk of 
exposure based on their occupation and the major metropolitan area they 
live. It is generally the judgment of those who have considered the 
likely evolution of a large-scale anthrax attack that time is of the 
essence. It would be extraordinarily beneficial to have confidence that 
critical responders such as police, fire, health care, and yes even 
postal workers, who we may need to count on to save the lives of others 
would be afforded the same protection afforded to our troops.
    I would like to point out that there should be an additional 
provision in your bill that is not in the draft that I reviewed for 
this hearing. One of the most undervalued and appreciated group of 
first responders that I know of, besides U.S. postal workers, are our 
emergency medical service (EMS) workers. They are the critical link 
between the incident where the attack, disaster, or accident happened 
and the medical system. They suffer in the Federal grant programs, 
depending on their jurisdiction, being neither fish nor fowl: Not 
recognized as being a traditional police or fire first responder. They 
are also not necessarily included for funding in the hospital 
preparedness grant programs. I would suggest to you that considering 
how best to optimize this group of ``force multipliers'' is not only 
overdue but essential in any legislation you consider.
    Finally, I would like to close by simply saying that so far, the 
United States has not experienced the true nature a biological attack. 
According to President Obama's Presidential Policy Directive 2, a 
single unmitigated biological attack could place at risk potentially 
hundreds of thousands of deaths and cost the Nation over a trillion 
dollars. The letter attacks experienced in 2001 were just a small 
indication about the potential power of these weapons. I believe we, as 
a Government, do a bad job predicting the next disaster. The National 
security challenges we face are unpredictable and require a robustness 
and flexibility in capabilities that we have yet attained. I see your 
bill as helping build that capacity and resilience and look forward to 
supporting your efforts in the future. Thank you.

    Mr. Lungren. Thank you, very much, Dr. Kadlec, and thank 
you for your service in the military. I am reminded that 67 
years ago, this month, my father was a medical officer in the 
United States Army marching across Normandy.
    Although he only served a few years, when he passed away, 
we honored him by indicating that on his tombstone, which is 
one of the things he wanted. So I thank you for your service to 
our country in all your capacities.
    Sheriff? Again, thank you for your service, particularly as 
one of those who responded to the ghastly attack that took 
place on 9/11, and thank you for your continued service and, we 
await your testimony.

 STATEMENT OF RICHARD H. BERDNIK, SHERIFF, PASSAIC COUNTY, NEW 
                             JERSEY

    Sheriff Berdnik. I thank the subcommittees for the meeting 
here today and the opportunity to appear before this joint 
panel.
    I would like to commend Chairman King and, of course, my 
Congressman, Bill Pascrell, for their leadership on this issue 
and their sponsorship of the WMD Prevention and Preparedness 
Act of 2011.
    I have seen Congressman Pascrell's continued leadership on 
this issue, and I personally want to thank you and commend you 
for your efforts. On January 1, 2011, I had the privilege of 
becoming the sheriff of Passaic County.
    Passaic County is a jurisdiction of approximately a half a 
million people, encompassing 185 square miles just outside the 
city of New York. It is actually northern New Jersey. Prior to 
becoming the sheriff, I was a detective/lieutenant with the 
Clifton Police Department for almost 30 years and served as a 
SWAT team commander.
    It was during that time with the Clifton Police Department 
that I became a first responder to the World Trade Center on 
September 11, 2001. In addition to being one of the worst days 
in our Nation's history, I saw first-hand the deficiencies that 
our emergency responders face.
    That day, thousands of brave law enforcement officers and 
emergency responders were called into service and showed great 
courage and commitment to our country. Unfortunately, there 
were many obstacles to overcome. We did not have the proper 
equipment, training, and the ability to communicate during this 
horrific event.
    As the years have gone by, some of those issues have been 
addressed but many have not been completely mitigated. It is 
almost 10 years ago. The issues I observed, they still plague 
us and our local public safety agencies today.
    The passage of this bill is essential to our Nation. 
Nationally, it is important that our Government has a system in 
place for preventing and working through a WMD incident. It is 
equally important that public safety, in general, has a system 
to address these issues and resources to protect our citizens.
    In New Jersey alone, the Home Security grants are slated to 
be reduced by 50 percent this fiscal year. That is not only 
shortsighted, but a dangerous public policy decision. In 
Passaic County, the sheriff's officers benefit greatly from 
funding through the Urban Area Security Initiative, and if the 
sheriff's office deploys certified CBRN, HAZMAT, bomb squad, 
SWAT teams as defined by NIMS.
    The ability to train and equip these teams properly is a 
direct result of the funding provided UASI. These proposed 
reductions in funding will be devastating. They will cripple 
the ability of these teams to respond in times of emergency. I 
understand that members of this panel share my concerns.
    In fact, recently, I just read an article in the Government 
Security News where Representative Bennie Thompson, the Ranking 
Member of the Homeland Security Committee, expressed these 
exact sentiments. Additionally, the sheriff's officers and the 
Department supports the county health agencies in bioterrorism 
and provides CBRN detection and security for points of 
distribution.
    Funding is needed to test and evaluate these PODs to ensure 
their efficiency and effectiveness and the delivery of vaccines 
and medication during emergencies. We must also ensure that 
first responders are equipped with the latest technology 
available to support their mission.
    Unfortunately, deficiencies in communication are still on-
going; still much of a problem in much of the State of New 
Jersey. With the current trend moving toward shared dispatch 
services, it is important to ensure that funding to enhance 
interoperable communications is provided. Initiatives like 
SafeCom are consistent with fulfilling with the objectives of 
the National Emergency Communications Plan.
    As demonstrated in the 9/11 attacks and other National 
disasters, the inability for first responders to effectively 
communicate with each other led to a substantial loss of life. 
Funding must be allocated to purchase additional frequencies in 
the D Block spectrum. This will enable deployment of the 
Nation-wide broadband network for first responders.
    Finally, there is no universal means to quickly and 
efficiently notify the public impending emergencies. There 
exists a patchwork of communication systems where agencies 
currently deploy their own methods to notify their respective 
citizens and responders. Currently, no comprehensive technology 
exists to broadcast a message to all the residents of Passaic 
County.
    This needs to be corrected, and the only way to mitigate 
this dangerous situation is through the availability of Federal 
funding. This initiative will allow for the deployment of a 
universal emergency alert system. The introduction of this bill 
moves our Nation to establish a dialogue to ensure we are safe 
from any future attacks.
    The legislation helps address deficiencies in agency 
planning coordination and training that our Nation so badly 
needs to address. Though these issues cannot be solved with 
money alone, our Nation needs to put the appropriate resources 
toward this problem.
    Again, I would like to thank the committee, its Chairman, 
Congressman Pascrell, for the opportunity to speak before you 
today. As a law enforcement professional, I am proud to be part 
of this panel. I feel that our collective experience can assist 
in crafting the appropriate public policy to make our Nation 
safer from a potential weapon of mass destruction attack.
    Thank you, again, for the opportunity, and I look forward 
to addressing any of your concerns.
    [The statement of Sheriff Berdnik follows:]
                Prepared Statement of Richard H. Berdnik
    I would to thank the Chairman of the Homeland Security Committee, 
the Chairs, and Members of the subcommittees meeting here today for the 
opportunity to appear in front of this joint panel.
    I want to commend Chairman King and my Congressman Bill Pascrell 
for their leadership in this issue and their sponsorship of WMD 
PREVENTION AND PREPAREDNESS ACT OF 2011. I have seen Congressman 
Pascrell's continued leadership on this issue and I personally want to 
thank and commend his efforts.
    On January 1, 2011, I had the privilege of becoming the Sheriff of 
Passaic County. Passaic County is a jurisdiction of a half million 
people, encompassing 185 square miles outside of the City of New York 
in Northern New Jersey. Prior to becoming Sheriff, I was a Detective 
Lieutenant with the Clifton Police Department for almost 30 years and 
served as the SWAT Team Commander. During my tenure with the Clifton 
Police Department I became a first responder to the World Trade Center 
on September 11, 2001. In addition to being one of the worst days in 
our Nation's history, I saw first-hand the deficiencies that our 
emergency responders faced. That day thousands of brave law enforcement 
officers and emergency responders were called into service and showed 
great courage and commitment to our country.
    Unfortunately, there were many obstacles to overcome. We did not 
have the proper equipment, training, and the ability to communicate 
during this horrific event. As the years have gone by, some of those 
issues have been addressed, but many have not been completely 
mitigated. It is amazing that almost 10 years ago, the issues I 
observed then still plague local public safety agencies.
    The passage of this bill is essential for our Nation. Nationally it 
is important that our Government has a system in place for preventing 
and working through a WMD incident. It is equally important that public 
safety in general has a system to address these issues and resources to 
protect our citizens.
    In New Jersey alone, the Homeland Security grants are slated to be 
reduced by 50 percent this fiscal year. That is not only short-sighted, 
but a dangerous public policy decision. In Passaic County, the 
Sheriff's Office benefits greatly from the funding provided through the 
Urban Areas Security Initiative. The Sheriff's Office deploys certified 
CBRNE/HAZMAT, Bomb Squad, and SWAT Teams as defined by NIMS (National 
Incident Management System). The ability to train and equip these teams 
properly is a direct result of the funding provided by UASI. These 
proposed reductions in funding will be devastating. They will cripple 
the ability of these teams to respond in times of emergency. I 
understand that members of this panel share my concerns. In fact, just 
recently I read an article in Government Security News where 
Representative Bennie Thompson, the Ranking Member of the Homeland 
Security Committee, expressed these exact sentiments.
    Additionally, the Sheriff's Office supports the county health 
agencies in bioterrorism and provides CBRNE detection and security for 
Points of Distribution. Funding is needed to test and evaluate these 
PODs to ensure their efficiency and effectiveness in the delivery of 
vaccines and medication during emergencies. We must also ensure that 
first responders are equipped with the latest technology available to 
support this mission.
    Unfortunately deficiencies in communication are still an on-going 
problem in much of the State of New Jersey. With the current trend 
moving toward shared dispatch services it is important to ensure that 
funding to enhance interoperable communications is provided. 
Initiatives like SAFECOM are consistent with fulfilling the objectives 
of the National Emergency Communications Plan. As demonstrated in the 
9/11 attacks and other National disasters, the inability for first 
responders to effectively communicate with each other, led to 
substantial loss of life. Funding must be allocated to purchase 
additional frequencies in the D-Block spectrum. This will enable the 
deployment of the Nation-wide broadband network for first responders.
    Finally, there is no universal means to quickly and efficiently 
notify the public of impending emergencies. There exists a patchwork of 
communication systems where agencies currently deploy their own methods 
to notify their respective citizens and responders. Currently no 
comprehensive technology exists to broadcast a message to all of the 
residents of Passaic County. This needs to be corrected and the only 
way to mitigate this dangerous situation is through the availability of 
Federal funding. This initiative will allow for the deployment of a 
universal emergency alert system.
    The introduction of this bill moves our Nation to establish a 
dialogue to ensure we are safe from any future attacks. This 
legislation helps address deficiencies in agency planning, 
coordination, and training that our Nation so badly needs to address. 
Though these issues cannot be solved with money alone, our Nation needs 
to put the appropriate resources toward the problem.
    Again, I want to thank the committee, its Chairman and Congressman 
Pascrell for the opportunity to speak here today. As a law enforcement 
professional, I am proud to be part of this panel and I feel that our 
collective experience can assist in crafting the appropriate public 
policy to make our Nation safer from a potential weapon of mass 
destruction attack.
    Thank you for this opportunity and I look forward to addressing any 
concerns that the committee might have.

    Mr. Lungren. Thank you, very much, sheriff. We will now 
have a round of questions, and I will begin with 5 minutes of 
questions on my time.
    Dr. Kadlec, we always have this problem of being prepared 
and utilizing our resources properly, and you have heard some 
of the testimony about a difficult budget circumstance we have. 
You mentioned that the reports you had to give to the President 
with respect to our vulnerability with an anthrax attack. 
Golly, I think it was over 5 years ago that HHS indicated that 
we needed to move towards the next generation of anthrax 
vaccines.
    As I understand it, we are still in the first generation, 
which was developed in 1960s?
    Dr. Kadlec. Fifties.
    Mr. Lungren. Fifties? There have been some articles I have 
seen that have criticized the cost involved, and you know, when 
you are dealing with vaccine, and so forth--where are we, from 
your view, in terms of a next generation anthrax vaccine, No. 
1.
    No. 2, are we doing as effective a job in utilizing our 
resources in terms of purchasing the vaccines that are 
available. If not, is there an alternative? We always talk 
about competition being one way to bring costs down. That is 
sometimes a strange concept when you are dealing with vaccines 
that are stockpiled.
    How do we answer that question? Where do you think we are 
on that?
    Dr. Kadlec. Well, when I was in Government, we were 5 years 
away, and as we are today, we are 5 years away. So I think the 
practical reality is it has taken longer than anybody 
anticipated to develop a new generation or next generation of 
anthrax vaccine. There are technical challenges that have to do 
with the science that have not been resolved with that.
    Subject to the issue of, you know, do we need one or should 
we have one, I think one of the concerns--and it has more to do 
about resilience than it has to do anything about a particular 
product is being--relying on a single source for a product. 
Particularly where that--is a National security measure or 
capability, then you would like to somehow have some built-in 
redundancy.
    So I think the idea of competition here is not only who may 
get there first. It is the idea that we have to ensure that we 
have potentially two sources of this. There are a variety of 
ways of doing it. Essentially a single manufacturer can have 
two locations manufacturing of this product or whatever.
    But, you know, not to get into those particulars, I think 
the reality is is that in some ways, we are still a ways away. 
We do have the benefit of a product right now that is FDA-
approved. It has been in several million individuals, mostly 
military personnel. So it seems appropriate to consider that we 
can use a product we already have in ways that we haven't used 
it yet, particularly with the first responder community.
    Mr. Lungren. Is that a matter of----
    Dr. Kadlec. No, sir, I don't think so.
    Mr. Lungren. Okay.
    Senator? What is it that is not happening that must happen 
to ensure the sustainment of a long-term commitment to this 
issue? In other words, you have talked to us about the two 
things that you think are the greatest vulnerabilities. What 
are our self-imposed liabilities? What are we not doing that we 
need to do? What would be the front-burner achievements you 
would ask us to attempt?
    Mr. Talent. Well, I don't want to anticipate the assessment 
that is coming out in October from the WMD Center too much. I 
would say we clearly have issues with the stockpile. I mean, we 
have not stockpiled the range of countermeasures that we need 
despite the fact that this has been an area where there has 
been a rather considerable degree of funding.
    Bob just talked about--you asked about anthrax, Congressman 
Richardson raised the issue of children. Well, one of the 
things we are going to study is whether the countermeasures--
whether we are considering the special needs of children who 
may be victims of this and developing the countermeasures, 
because children can't always take the same things that adults 
are taking.
    That is clearly an area--we have done almost nothing on the 
whole clean-up issue, and if we are hit with anthrax, that may 
be the biggest long-term issue, and we have no idea now what 
standards should be followed.
    We have a lot of detection and surveillance out there, but 
we have not integrated it enough. We don't have enough real-
time. So these are all areas. Then I would just say more 
broadly, getting the Congress and the administration beyond 
certain groups like this committee to understand the urgency of 
this and understand what that means in terms of decision 
making, which is what Mr. Pascrell talked about, what I talked 
about.
    This is going to be with us for a while. If you think of 
the world--and I think this is how we are to think about it--it 
is a number of networks, you know, financial, communications, 
transportation, and in societies like ours, the livelihood of 
our people and the quality of life depends on their ability to 
participate in those networks.
    Everybody aspires to be in a society where everybody can 
participate. In--elements around the world, Mr. Chairman. Right 
now, it is, yes, the very extreme branch of Islam, but it could 
be anybody. They understand that using asymmetric weapons is a 
way to hit societies like ours.
    So this is going to be an issue that is going to be with us 
for a long time, and as a Government, we have to adjust to that 
and act appropriately.
    Mr. Lungren. Thank you, very much, for your comments. Just 
reminded me of something Dr. Kadlec said when he was talking 
about the necessity of having a biodefense adviser to the 
President. Part of it is just accessibility to the President 
and his top people.
    I mean, if you have got somebody that is in your network, 
it is more likely you might pay attention to them. We all are 
victims of and products of our environment, and if I pass you 
in the hall, or when I go to--we used to call it the EEOB, now 
I guess it is the Eisenhower Building--if I pass you in the 
hallway or see you, I might be reminded to ask you a question 
and pay attention to it.
    At this time, I would recognize the Ranking Member of our 
subcommittee, Ms. Clarke for any questions that she might have 
in her 5 minutes.
    Ms. Clarke of New York. Thank you, very much, Mr. Chairman. 
Let me thank our panel for their very enlightened testimony 
here this morning. I have a particular interest in white powder 
incidents.
    As I have said, I am from New York City, and there seem to 
be repetitive events that take place from time-to-time in New 
York City. Last year, in fact, we had white powder letters sent 
to foreign embassies and consulates in New York City.
    The FBI had briefed me on the status of their investigation 
at the time, but I would like to ask if anyone on the panel has 
any particular knowledge of these events, and do you think that 
our intelligence efforts performed well or informed that 
particular investigation or other white powder events in the 
United States or around the world, in general?
    Sheriff Berdnik. As a first responder speaking on the level 
of sheriff, within Passaic County we have had white powder 
incidents, and again, the ability to investigate them is there. 
The important thing is actually working with, not only Federal, 
State, and local agencies, but we have been successful in 
tracking these incidents, and the fact that we are working with 
the Federal authorities is definitely beneficial to us.
    Mr. Talent. We need a National intelligence strategy for 
dealing with the biothreat, and we don't have it. It is broader 
than just this incident. Now, I think the FBI has really 
stepped up in the course of the last few years in terms of what 
it does domestically.
    But the broader intelligence community, I am concerned, 
hasn't. You all ought to, you know, I am sure you get those 
briefings regularly anyway, but there are materials in there 
that will tell you that they are not as conscious, that this is 
a very serious threat as they ought to be.
    So I am concerned on the intel. I don't have specific 
knowledge of how the FBI has handled these incidents though, 
ma'am.
    Ms. Clarke of New York. It is of concern simply because, 
you know, oftentimes these white powders are sent into, like, 
the heart of the city. Once they reach their destination, you 
know, now you are dealing with mitigating a potential threat--
--
    Mr. Talent. Absolutely.
    Ms. Clarke of New York [continuing]. As opposed to 
preventing it.
    As you know, there are those who believe that the nuclear 
threat to be greater than the biological threat, and it is 
apparent to me that part of the belief is based on a lesser 
quantity of intelligence regarding the biological threat and 
the different challenges associated with even collecting 
information on the biological threat in the first place.
    Do you believe this to be the case as well?
    Dr. Kadlec. I do. During my time at the White House, 
clearly, if you look at the volume of material, there is 
certainly disparity. I think in some ways, that disparity 
reflects the challenges, quite frankly, to get good 
intelligence.
    I mean, I recall the WMD Commission, sir, before yours that 
looked at the events in Iraq and basically highlighted the fact 
that the difficulty of collecting that kind of information 
because of the--nature and the ambiguity that is inherent in 
all that.
    But also is the stigma that basically said that based on 
their view, at that time, which I believe was 2005 and 2006, is 
that in some ways, you know, they knew we would know less about 
the biological threat 5 years hence than they did then. So I 
think there is a real challenge there.
    I would just highlight to you that I believe it was in the 
2010 Intelligence Authorization Bill there was actually a call 
to have a report from the DNI on this particular area, the 
biological collection issue. So, I don't know where that is in 
its evolution, but clearly I think it has been a matter of 
concern by Congress and rightfully so.
    Mr. Talent. If I could just----
    Ms. Clarke of New York. Sure, quickly.
    Mr. Talent. The old leader of al-Qaeda, who has met his 
just desserts, his background was in construction. I don't 
think it is any accident that the plan he developed involved, 
you know, attacking a building.
    The new leader of al-Qaeda's background is in medicine and 
infectious diseases, and I do believe that the intelligence 
community as a whole has never just really accepted the urgency 
of this threat as they have in the nuclear area, and I think 
you are right to be concerned.
    Ms. Clarke of New York. I am sorry, sheriff, did you want 
to add anything?
    Sheriff Berdnik. Just, again, the fact is from the 
perspective of a county, when we have these white powder 
incidents--again, in our situations, it causes a lot of 
pandemonium, a lot of hysteria. It causes the evacuations of 
buildings. It causes an area to be contained, and from that 
perspective, not just from the fact that it is a chemical 
threat, but the fact that it does cause a public threat from 
the hysteria that it causes.
    Ms. Clarke of New York. Thank you, very much, gentlemen for 
your feedback, and I yield back, Mr. Chairman.
    Mr. Lungren. Gentleman from Florida, Chairman of the other 
subcommittee is recognized for 5 minutes or more.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    Senator Talent, in your report you described Pakistan as an 
intersection of nuclear weapons and terrorism. Since the death 
of bin Laden, our relationship with Pakistan has been in a 
state of flux. How is this affecting our ability to work with 
the Pakistani government to secure nuclear materials in 
Pakistan and defeat terrorist safe havens?
    Do you think the fact that the bin Laden was found in their 
country so close to their military training academy--has it 
opened their eyes to the terrorist threat and given them a 
greater sense of urgency to secure nuclear and biological 
materials?
    Mr. Talent. I will speak as, you know, Jim Talent, private 
citizen here, because the WMD Center doesn't--we are not taking 
a view on that. We said in the report that it was the epicenter 
of our concerns--Pakistan was, and everybody knows it is 
difficult to deal with Pakistan, in part, because it is 
difficult to figure out exactly what is going on.
    You know, it has been my opinion that it is a government 
that has been penetrated pretty effectively, particularly in 
security services by elements that are hostile to us and if not 
friendly, at least open and receptive, and I think the incident 
with Osama bin Laden is some indication of that.
    Parts of the government that don't have that view are 
nevertheless--they are not putting the same level of priority 
at going after these terrorist elements as we are. I mean, they 
are looking at that, I think, in the context of domestic 
politics and broader issues like their relationship with India, 
which makes it difficult to deal with them.
    At the same time, given the position that we are now in in 
Afghanistan and the fact that when what we are trying to do in 
the region, you have to deal with the government of Pakistan. 
So it is a situation where they have leverage. I am not going 
to tell you that I think that they're entirely reliable; 
although, there certainly are elements of the government that 
have worked with us.
    Yes, the way that that mission developed, and the fact that 
he had been there that long is, in my judgment, a source of 
concern.
    Mr. Bilirakis. Thank you. Anyone else on the panel choose 
to respond? Okay.
    Next question, we know from think-tank research that--this 
is for Dr. Kadlec, in particular. We know from think-tank 
research that at least a dozen Federal departments and agencies 
are involved in biodefense activities.
    It seems that we shouldn't have to rely on think-tanks for 
this information. The WMD bill directs that the White House 
submit an analytical budget crosscut for its biodefense 
expenditures. Having worked in the White House, what kind of 
analysis do you think would come from this provision, and will 
it help get us the analysis of redundancy and inefficiencies 
that we are looking for? For Dr. Kadlec.
    Dr. Kadlec. Thank you, sir. I would just simply say, I 
think we would probably be surprised at the number of programs 
that are identified as biodefense programs that may not be, No. 
1.
    No. 2, and that could be the circumstance that they are 
labeled or they are doing something else, maybe chemical 
defense. So the thing is that there is lack of, I think, 
understanding how things are defined.
    Clearly, sometimes it is in the benefit of the Department's 
budget to basically characterize things in one light when in 
actuality they are doing other things. So I think we will find 
a few of those out there.
    The other thing is, we will likely find that there are some 
redundancies, some that maybe should be planned redundancies 
but others that are, quite frankly, unintentional and 
unrecognized. So, there are opportunities to leverage those in 
terms of better programs. Again, certainly savings in that 
area.
    The third thing is, I believe, is that you will find that, 
in some ways, the Department's interests and, again, we talk 
about the environmental issues that we--and the concerns around 
how well we are to clean up contaminated areas--that you will 
find that there are multiple departments that are doing things 
that are relevant and they don't even know they are doing those 
things, meaning that someone else is doing something very 
similar.
    So they first can leverage those and the benefits of 
increasing their knowledge base, but also to collectively work 
on a problem cooperatively. Again, it gets back to this issue 
of leadership at the White House and being able to not only 
have that kind of cross-cutting budget that says what is being 
spent and how and by whom, but then going the next step and 
saying, well, how do we actually leverage it?
    We actually tried that in the Bush administration subject 
to medical basic research and development. Just between the 
Department of Defense and NIH, and went through--and maybe 
there is a success story there. I don't have the particulars of 
it, but it was certainly challenging, and it certainly wasn't 
necessarily bringing two willing departments together.
    I think that is what you have to do is kind of force 
unnatural acts between departments and agencies to do the right 
thing.
    Mr. Bilirakis. Thank you. Anyone else want respond?
    Mr. Talent. I will, with your permission, because I don't 
think I gave as good an answer to Chairman Lungren's question 
to me as I should have. Because this really is, I think, the 
No. 1 thing is getting somebody in charge of the whole 
enterprise.
    Getting somebody who has the clout, the ear of the 
President, and the ability insofar as it is possible in our 
Government to get people to work together and that also knows 
everything that everybody is doing.
    I think if we don't do that, then the other things that you 
are working on legislatively--as important as they are, are 
likely to fail in execution. So if I can amend my answer to 
you, Chairman Lungren, that is probably the No. 1 thing.
    Mr. Bilirakis. Thank you for your comments. I yield back, 
Mr. Chairman.
    Mr. Lungren. Since some of the other Members had to leave, 
we have time for a second round. So I will recognize myself for 
5 minutes.
    Dr. Kadlec. In your written testimony, you expressed 
concern about doing away with what is known as the National 
Biosurveillance and Integration Center, yet there appears to 
be, even in your own testimony, consensus that it is not doing 
what it should. It hasn't reached its objective.
    You talk about let's not throw the baby out with the 
bathwater, and I understand that, but what would you like to 
see that strategy accomplish, that is a truly interagency 
strategy, and how soon, realistically, do you think you could 
have a truly National and integrated biosurveillance mechanism 
and--well, first of all, purpose--goal and mechanism that 
affects that goal?
    Dr. Kadlec. Well, my understanding, there is active work in 
that area right now. So I would say the good news is it seems 
like there is activity, certainly in the Executive branch at 
the White House, subject to the--that is the good news.
    I am less concerned about the strategy than the plan, 
because I think the strategy is pretty straightforward, I 
think, in terms of having confidence in your ability to detect 
across a range of spectrums--human, animal, plant, 
environmental, things, agents, whatever that happened that you 
would really need to know about quickly and be able to 
disseminate that.
    Mr. Lungren. Is it a lack of knowing what the specific 
pieces of evidence should be, or is it a lack of putting up 
some sort of chain and then integrating them? For instance, if 
you are a first responder, you are a sheriff, you are a police 
department, your eyes and ears are everywhere compared to 
anybody in the Federal Government.
    Is it a lack of training for officers to know that if they 
see this, this is something that at least ought to be mentioned 
and somehow we don't have a reporting requirement? Or is it 
those things do get reported, but they are not integrated?
    Dr. Kadlec. Well, I think it is the latter. So I would say 
to use the law enforcement analogy, I have greater confidence 
that information that has been collected in the field by law 
enforcement officials, intelligence officials are being 
synthesized and dissimilated rapidly. It is not that same way.
    I think one of the challenges, particularly in our 
inability to have a high degree of confidence of understanding 
what is going on out there. Look at a disease outbreak, and I 
will use Germany as an example with the latest E. coli 
outbreak. I mean, the fog and friction of war applied to 
outbreaks of disease and the ability to gather credible 
information and evaluate it in real time.
    So, in some ways, there is not only that, if you will, the 
front-end problem, be able to get to know what you don't know 
rapidly, there is also the idea of once you know it, how do you 
manage it and how do you share it? I think there is a 
reluctant--and this gets to a bureaucratic problem as well--
that, in some ways, departments and agencies with some of these 
responsibilities are less than willing to share information, 
particularly early on when their confidence levels are not very 
high subject to the information they have.
    Mr. Lungren. How would you define biosurveillance in this 
context?
    Dr. Kadlec. Well, I think it would be what we would want to 
know about what is happening in humans; that it is happening 
not only through public health departments, but more 
importantly, emergency rooms and doctors' offices, in mini 
clinics at Walmart and all the other places around and having 
some confidence that, if there are suspect cases of either some 
natural or deliberate event, that those would be hopefully 
recognized early.
    A critical enabler--there is a technology solution that 
doesn't get a lot of identification, but it is point-of-care 
diagnostic. Being able to provide a physician something that is 
in his means to rapidly evaluate someone to ascertain whether 
they have or not have something that is of public health 
concern.
    Mr. Lungren. How do you command that? In other words, I am 
a pediatrician on my own. I see something of a certain disease, 
communicable of some sort, I know I am required to report 
certain things----
    Dr. Kadlec. Right.
    Mr. Lungren. Do I need to have that training when I am in 
med school, continuous training, public health edicts, or 
publications? What do you do?
    Dr. Kadlec. Well, I think all of the above. I mean, the 
reality is for, you know, practitioners--and I don't mean to 
single them out here, but that is just the human element. But 
yes, you really do need to have a sensitive--I will use 
something, you know, mundane like measles as an example, where 
we have outbreaks of measles, not because people are not 
sensitive to it, it is just sometimes they don't recognize it, 
and they are not aware of it, and they kind of lost that index 
of suspicion.
    So, in some ways, it is really sensitizing the whole system 
to these kind of events. The challenge is a lot different 
though if you have to look at food or animals or crops, because 
those really rely on very different input to the system, where 
the commercial sector has a huge role in it and, quite frankly, 
is also somewhat reluctant to share that kind of information, 
because you can imagine, you know, bad news about a product can 
certainly impact sales as it often does.
    So there is some, you know, it is not easy to say 
homogenously, you know, how do you build this? I think part of 
it is building a trusting place where NBIC was supposed to be 
where people believe that you could share information and that 
information would be handled responsibly and disseminated to 
people who need to know when they needed to know it.
    That is something that, quite frankly, has not happened 
with NBIC.
    Mr. Talent. Mr. Chairman, if I could, I am very hopeful. 
Bob Graham and I, along with Colonel Larsen and Lynne Kidder 
are very hopeful that our report is going to help you with 
respect to this sort of thing.
    We are going to have a piece on the threat, a piece on the 
assessment, and then a piece on recommendations. I know it is 
very difficult. You can't do everything. So, you know, what are 
the priority things? What are the most important things?
    I think, Bob talked about point-of-care diagnostics. I 
think the current diagnostic test we have for anthrax takes 48 
hours, does it? Well, of course, you have to respond within 48 
hours. If it takes 48 hours to find out a person has anthrax, 
you can't get them the Cipro in time.
    So that sort of thing probably is the higher priority. Then 
the only other point--and I am going to go back to a point you 
made, and I am glad you are facing up to it, the extremely 
complicated oversight rules here in the Senate in this issue 
make it more difficult for agencies to develop the level of 
trust with this body that they need to act freely and make 
judgments. Because, as you know, oversight works when it is one 
committee or two committees.
    The Executive branch develops relationships. They know what 
to expect, what is expected of them, et cetera. Then they can 
feel free to make a judgment without fear that they are going 
to be hung by somebody they don't even know, if you know what I 
mean.
    Now, on the other hand, if they are ever going to be 
overseen by two dozen different committees, it is much more 
difficult to get that kind of a relationship and much more 
difficult for them to know the discretion they have to act. So 
I can't emphasize enough that getting that problem fixed I 
think is going to help across a wide area of issues.
    Mr. Lungren. Thank you, very much.
    Mr. Clarke of Michigan is recognized.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman. My 
apologies coming, I think, Senator, you are actually addressing 
the issue that I think is really critical.
    I am a new Member here. So many times, you know, also and a 
former staffer. So last 2 days, we have had critical 
legislation before this committee, and apparently, you know, we 
haven't been able to get it implemented through Congress 
because of all these other committees that have jurisdiction 
over the issue.
    To me it has become clear, is that if we want to protect 
the American people, especially against the harms that this 
legislation and other legislation this committee has considered 
and passed, we need exclusive jurisdiction over these issues, 
really.
    You know, our enemy is out there plotting and they are 
evolving with their threat. We have to outmaneuver them. Our 
decision-making process has to be quicker. I mean, this is 
really, like, outrageous.
    So I just want to commend Chairman Lungren and Congressman 
Pascrell for recognizing that. Just along the lines of that F 
grade that you gave us in terms of oversight, could you just 
expand on that a little bit, since I missed that, because I am 
assuming that is relevant to unifying the committee 
jurisdiction over these homeland security issues.
    Mr. Talent. Sure. I have always been a fan of--I think 
Congressional oversight adds a lot to the Executive branch work 
on balance. Now, we all have been part of oversight hearings or 
processes that haven't worked very well, and I think they can 
add a lot to this. One of the reasons I think this legislation 
is so important, even though some of it could probably be done 
by an Executive branch order, as the President has done with a 
National bioforensic strategy and the lab regulation and they 
deserve credit for that--is because when the Congress does 
something--when you all pass legislation, everybody in the 
Government sits up and takes notice.
    In the Executive branch, in a way, oddly enough, that they 
don't necessarily is when the President says something. Because 
you all control the money. You know, it is a sign of unity 
across the branches of Government that I just think is hugely 
important.
    That is, you know, oversight represents that kind of 
influence. But just for common-sense reasons, it just doesn't 
work if you have taken a subject that ought to be confined to 
one or two committees and you split it up among dozens and 
dozens of committees and subcommittees.
    Nobody is looking at the whole picture. Everybody becomes 
parochial. Everybody cares about their program; their little 
agency; their little slice of it, and few people care about 
working together.
    So an organization or a body that ought to be an 
integrator--the Congress--that ought to be encouraging unity of 
effort within the Executive branch, that ought to be overseeing 
to make certain that, you know, the money goes to the right 
places becomes an agent for the opposite of that. Either 
nothing is done, or it just tears the effort apart.
    That is bad enough in this body, but let me say, it is 
worse in the other body, because, you know, those struggles are 
worse over there and they also have confirmation power over 
there, which means that, you know, they can do more mischief if 
the oversight goes off the rails.
    So I think you are correct, and this is not just a 
Congressional reform thing you can write about and they will 
teach about in colleges and doesn't really matter whether you 
do it or you don't do it. I mean this is a big deal, and I 
think you are right to raise it.
    Mr. Clarke of Michigan. Thank you, Senator.
    Just for the time I have left, I just want to give just the 
panel a follow-up on a specific example, and that deals with 
the regulation of facilities that have chemicals of interest on 
their premises.
    You know, yesterday we considered authorization of the 
CFATS, Chemical Facilities Anti-Terrorism Standards, and for 
me, I represent metro Detroit that has a huge regional drinking 
water and waste water system. Well, CFATS won't apply to those 
systems. I think it is critical, you know, to protect the 
American people--millions of people that could get harmed from 
contaminated water--that we have some regulatory body in the 
Federal Government whose charge is to regulate the security of 
waste water and drinking water systems.
    Apparently, there isn't that type of consolidated 
regulatory oversight. Now, on an off-line conversation some of 
you mentioned it, there likely may not be a great bioterrorist 
threat to waste water systems, but there is a water system in 
my area that is totally open to anybody, you know, 
contaminating that water supply.
    So it still concerns me that, No. 1, these systems are 
still vulnerable to a bioterrorist attack and that, second, 
there is the need to have a single regulatory oversight by the 
Federal Government over these water and waste water systems.
    Did your report, or your investigation, address any of 
these issues specifically? I yield back----
    Mr. Talent. I would certainly defer to either the sheriff 
or Dr. Kadlec on this, because they are more expert, but our 
feeling is that an attack would be less likely to come through 
a water system, because it is not as good a--from the 
standpoint of the attacker--not as good a means of 
disseminating the toxin or the germ, because it gets diluted so 
quickly in the water supply and might get filtered out.
    Now, having said that, there are all kinds of reasons why 
you don't want a water treatment system to be, you know, 
unprotected. You know, for one thing, just the disruption of 
that system, if not through a bioattack, through some other 
attack would certainly disrupt that city.
    So I think your concern is justified, and I would just say 
that, as you move forward with the concept of some kind of 
regulation, do try to do it in a way that integrates with the 
authorities that are already out there so that we don't have 
another one that we, sort of, don't know what it is doing, and 
it doesn't know what everybody else is doing.
    So this concept of trying to unify the regulatory structure 
is very important.
    Sheriff Berdnik. If I might just add to that. The Passaic 
County Sheriff's Department does patrol the reservoirs. We have 
actually eight sheriff's officers assigned to that function. In 
addition to that, there is private security.
    Also, we are working in conjunction now with the 
prosecutor's office through grants that they had obtained to do 
video monitoring of those sites as well.
    Mr. Lungren. Mr. Bilirakis recognized for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    Sheriff, we heard concerns from witnesses in one of our 
hearings on medical countermeasures dispensing that a 
biological attack on an unprepared Nation would seriously 
disrupt the critical infrastructure.
    How important do you think it is to have a comprehensive 
risk-based guidance for first responders to guide them in their 
preparation for a CBRN attack?
    Sheriff Berdnik. I think it is very important. I think that 
every officer should be prepared. They should have the best 
education available to them. Again, in a time of chaos and 
panic, it is most important to have the ability to be able to 
communicate and network amongst each other to deal with the 
crisis.
    Mr. Bilirakis. Thank you. Let me ask you one more question. 
We are having a hearing on July 8 with regard to warnings and 
alerts. How much trouble are you having--elaborate as far as 
notifying your residents, your constituents----
    Sheriff Berdnik. Yes, we have a substantial problem. If we 
were to----
    Mr. Bilirakis. Give me some suggestions.
    Sheriff Berdnik. Okay. If an attempt to notify all the 
residents of Passaic County, it is my understanding that 
through a computerized reverse 9-1-1 system, it would take 7 
days to make a complete notification.
    I think the way that--and, again, not being a computer 
expert, but my understanding is that through advancing the 
fiber optic lines, there would be a way of increasing those 
notifications at a much, much more rapid pace.
    Mr. Bilirakis. Okay, very good. We will get those 
concerns--your concerns will be heard. We are going to talk to 
FEMA and FCC. So thank you, very much. Appreciate it.
    Sheriff Berdnik. Thank you.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Mr. Lungren. Gentlelady from New Jersey have additional 
questions?
    Ms. Clarke of New York. Thank you, very much, Mr. Chairman.
    My question is for you, Sheriff Berdnik. From your work in 
local government in oversight work, I am sure you have some 
strong views on the inherent challenges of moving forward from 
a need-to-know mindset to a need-to-share mindset.
    In response to a WMD threat, what specific challenges have 
you identified that have impeded effective information sharing 
between intelligence and law enforcement personnel? How do you 
think these challenges can be met and overcome?
    Then, finally, what are some of the success stories you 
have regarding comprehensive cross-jurisdictional catastrophic 
planning?
    Sheriff Berdnik. Okay. Well, the one thing I have to say, 
sharing information, as everyone knows, is a contemporary 
topic. We in the sheriff's department work in conjunction with 
the prosecutor's office, the Federal authorities, and most 
recently, are enacting the ability to teleconference with the 
City of New York.
    I think this is the way of the future. I think this is the 
technology that we in law enforcement need. Again, it is the 
ability to communicate with each other. The ability to share 
information. I think that if we have the funding in order to do 
that as well as communicate with radios in the event of a 
catastrophe or emergency, it would be paramount.
    Again, as I stated, responding to September 11--tri-State 
response--the unfortunate thing was we could not communicate 
with each other.
    Ms. Clarke of New York. Could you just, sort of, share any 
of the success stories you have perhaps regarding comprehensive 
cross-jurisdictional catastrophic planning. I know that they 
are tabletop exercises that are taking place.
    There are other methodologies you talked about, the 
teleconferencing capabilities. Can you give us a clearer sense 
of some of the, I guess, forward-leaning activity that you have 
already engaged in?
    Sheriff Berdnik. Well, being involved in a HAZMAT, we also 
have a Tier II bomb squad, and the other thing, of course, is 
working with the office of emergency management.
    It is working with these agencies together that were able 
to accomplish our goals.
    Ms. Clarke of New York. Then, Senator Talent, it seems to 
me that the Government needs to know who is in possession of 
agents that are material threats to the Nation here in the 
United States and throughout the world.
    The military, of course, has long needed to make those 
determinations in order to protect our troops when deployed 
overseas. What is your perspective on this, and how concerned 
should we be about knowing where these agents are today, for 
both civilian and military purposes?
    Mr. Talent. Well, that is certainly a piece of the remedy 
is to know which labs are out there working on these special 
agent lists, the most toxic and the worst kind of pathogens.
    We had a section of our initial report dealing with that 
where we recommended certain changes. You all put it in your 
bill. The Executive branch has responded, we think, 
appropriately with an Executive Order unifying regulations and 
also moving in the direction of concentrating our regulatory 
resources on the most dangerous pathogens, rather than trying 
to oversee 80 different pathogens, for example, most of which 
are not likely to be the source of an attack, focus on the top 
six or eight.
    We think that that makes sense. So a lot of progress has 
been made. Now, we need to do more internationally. Other 
countries are nowhere near as good as we are in terms of 
looking at their labs. We also have to keep in mind one of the 
reasons why the biothreat is so dangerous is that life science 
research has proliferated.
    Of course, it is a good thing. We like life science 
research. It has proliferated to the point where it is probably 
impossible to prevent this threat by keeping an eye on 
everybody who is working with these agents.
    Because it is just too easy for any reasonably well-
educated bioscientist to, you know, to isolate a deadly strain 
of anthrax, E. coli, that sort of thing. But, yes, trying to 
find out where these agents are and regulating it is a piece of 
it. We have made some progress in recently. We do need to do 
more internationally.
    Ms. Clarke of New York. Thank you, Mr. Chairman. I yield 
back the balance of my time.
    Mr. Lungren. Mr. Clarke do you have any other questions? 
The gentleman is recognized for 5 minutes.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman.
    I want to raise the issue that has been addressed by this 
panel earlier about the need for interoperable communications. 
I represent the metro Detroit border, and we share a border 
with Canada, but our first responders cannot easily share 
information with Canadian officials.
    I will give an example. I was down in a local community in 
my district, and local police and fire they said, you know, we 
had an incident on the Detroit River, somebody needed rescue, 
but we couldn't really get a hold of the Coast Guard that 
easily because of our, you know, our radio equipment. Then, not 
only that, you know, that they couldn't communicate with their 
Canadian counterparts.
    So these are just three issues that you could address: No. 
1, how important is interoperable communications to battling, 
you know, WMDs? Second, is there a way to measure how much 
progress we have made nationally in really upgrading our 
communication systems, our radios, technology? Then, third, 
what is the approximate cost of fully integrating our 
communications systems among our first responders?
    I mean, to the degree that you have that information. If 
you don't, that is no problem. We can talk off-line about this.
    Sheriff Berdnik. From a local perspective, again, the area 
of what seems that we are progressing towards is 
regionalization of communications. At this time, with budgets 
the way they are, a lot of the smaller towns are requesting 
that the sheriff's office be involved in dispatching for them.
    So I think, again, as time goes on and this occurs, we are 
gaining the ability to communicate at a much rapid pace with 
the municipalities. The State also has a--it is called SPEN. It 
is a Special Police Emergency Network. This allows us to 
communicate anywhere within the State; however, part of the 
problem is the fact that it operates on a certain frequency. So 
that may require individual towns to have more than one radio 
in their car, which, again, is a cost factor.
    If they are not able to budget for that, then that causes a 
problem. We can have the system in place but what good is it if 
they don't have the equipment to utilize it?
    Mr. Talent. To answer your question on how important it is, 
I think it is very important, because there is a concept here. 
You know, America has these tremendous first responders, fire, 
police, emergency management, and in every case they have a 
culture of mutual cooperation, dedication, and we have seen it 
time and time again.
    Now, no matter how good a job that you all do here and the 
President does here, there is gonna be gaps in this resiliency 
chain. I mean it is just the nature of the thing. But if our 
first responders and local officials are empowered adequately, 
and some crisis occurs, they will figure it out on the ground 
and fill the gap as well as it can be filled.
    Part of empowering them is enabling them to communicate 
with each other. So I do think it is very important as a 
practical matter. I mean, when I was in the Congress, this was 
an issue. I was always told that to do it Nationally all at 
once would probably be prohibitively expensive.
    So it is good, in my mind, that they are moving to regional 
solutions and trying to adapt these systems over time and make 
them better.
    Mr. Clarke of Michigan. Well, you know, what I am 
recommending today in a resolution is we are devoting that kind 
of money to fight terrorism--we are actually borrowing it, but 
we are spending it in military aid to Afghanistan. So I am 
saying let's take a share of that here and give our first 
responders--our local police, local fire, local emergency 
medical providers the equipment and the resources they need to 
share information and to respond.
    I think that is the most effective and cost-effective way 
for our taxpayers to help protect the American people. Let's 
protect our folks here at home. We don't need to have even 
70,000 troops in Afghanistan. We could draw it down to 15,000, 
take a share of the savings and redirect it here to Department 
of Homeland Security to upgrade our communication systems for 
our first responders Nationally.
    Second, this is a political comment--this Congress in the 
past has failed to deal effectively with the foreclosure crisis 
that caused all these property values to drop. So our local 
units of government can't raise the money to cover these costs. 
We, in Congress, should do so and redirect and reallocate the 
money that we are spending in Afghanistan to address this very 
issue.
    Thank you for allowing me to make that comment here.
    Mr. Lungren. We have concluded all of our questions. So I 
think the witnesses for your valuable testimony and for your 
commitment to our country and, particularly, your commitment to 
the issue that we have before us today.
    Members of the subcommittee may have some additional 
questions for witnesses. So we would ask if you would please 
respond to these in writing after you have received them. The 
hearing record will remain open for 10 days.
    I want to thank Members of both subcommittees for 
participating and, with that, the subcommittees stand 
adjourned.
    [Whereupon, at 11:48 a.m., the subcommittees were 
adjourned.]

                                 <all>

</pre></body></html>
